<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND

                 HOUSING  AND  URBAN  DEVELOPMENT,  AND

                  INDEPENDENT AGENCIES APPROPRIATIONS

                                FOR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION
                                ________
            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                   JAMES T. WALSH, New York, Chairman
 TOM DeLAY, Texas                     ALAN B. MOLLOHAN, West Virginia
 DAVID L. HOBSON, Ohio                MARCY KAPTUR, Ohio
 JOE KNOLLENBERG, Michigan            CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi         ROBERT E. ``BUD'' CRAMER, Jr., 
 ANNE M. NORTHUP, Kentucky            Alabama
 JOHN E. SUNUNU, New Hampshire    

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Frank M. Cushing, Timothy L. Peterson, Valerie L. Baldwin, and Dena L. 
                                 Baron,
                            Staff Assistants
                                ________
                                 PART 1

              NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 57-789                     WASHINGTON : 1999

                                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                     DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                  JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia                STENY H. HOYER, Maryland
 TOM DeLAY, Texas                       ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                     MARCY KAPTUR, Ohio
 RON PACKARD, California                NANCY PELOSI, California
 SONNY CALLAHAN, Alabama                PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York               NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina      JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                  ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma        JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                   JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan              ED PASTOR, Arizona
 DAN MILLER, Florida                    CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                   DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                 CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey    ROBERT E. ``BUD'' CRAMER, Jr., 
 ROGER F. WICKER, Mississippi           Alabama
 MICHAEL P. FORBES, New York            JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,             MAURICE D. HINCHEY, New York
Washington                              LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,             SAM FARR, California
California                              JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                    CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                   ALLEN BOYD, Florida                
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     

                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 2000

                              ----------                              

                                           Tuesday, March 23, 1999.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                               WITNESSES

DANIEL S. GOLDIN, ADMINISTRATOR
LEE HOLCOMB, CHIEF INFORMATION OFFICER
ARNOLD G. HOLZ, CHIEF FINANCIAL OFFICER
MALCOLM PETERSON, COMPTROLLER
GEORGE E. REESE, ASSOCIATE ADMINISTRATOR FOR EQUAL OPPORTUNITY PROGRAMS
VICKI A. NOVAK, ASSOCIATE ADMINISTRATOR FOR HUMAN RESOURCES AND 
    EDUCATION
JOHN D. SCHUMACHER, ASSOCIATE ADMINISTRATOR FOR EXTERNAL RELATIONS
JEFFREY E. SUTTON, ASSOCIATE ADMINISTRATOR FOR MANAGEMENT SYSTEMS AND 
    FACILITIES
RALPH C. THOMAS, ASSOCIATE ADMINISTRATOR FOR SMALL AND DISADVANTAGED 
    BUSINESS UTILIZATION
EDWARD HEFFERNAN, ASSOCIATE ADMINISTRATOR FOR LEGISLATIVE AFFAIRS
JOSEPH H. ROTHENBERG, ASSOCIATE ADMINISTRATOR FOR SPACE FLIGHT
SPENCE M. ARMSTRONG, ASSOCIATE ADMINISTRATOR FOR AEROSPACE TECHNOLOGY
EDWARD J. WEILER, ASSOCIATE ADMINISTRATOR FOR SPACE SCIENCE
ARNAULD F. NICOGOSSIAN, ASSOCIATE ADMINISTRATOR FOR LIFE AND 
    MICROGRAVITY SCIENCES AND APPLICATIONS
ROBERTA GROSS, INSPECTOR GENERAL
GHASSEM ASRAR, ASSOCIATE ADMINISTRATOR FOR EARTH SCIENCE

                       Chairman's Opening Remarks

    Mr. Walsh. The hearing will come to order.
    This morning we would like to welcome Daniel Goldin, 
Administrator of the National Aeronautics and Space 
Administration for the committee's hearing on the NASA budget 
for fiscal year 2000. I would also welcome my colleague, Mr. 
Mollohan.
    The NASA budget request is about $13.6 billion, 
approximately $100 million below the appropriation for fiscal 
year 1999. Major components of the funding request for fiscal 
year 2000 include $2.5 billion for the International Space 
Station, development and assembly, $3 billion for shuttle 
operations, $2.2 billion for space science, 1.4 billion for 
Earth sciences. It is noteworthy that the area of your budget 
which has the largest change compared to fiscal year 1999 is 
the aeronautics program and that change is 33 percent 
reduction.
    At the risk of suggesting some humor, some persons have 
suggested as a result that the name of the agency should be 
changed to the National Space Administration given the 
decreasing role of aeronautics in your mission. We look forward 
to your explanation about the changes in all your programs and 
the aeronautics program in particular.
    Mr. Goldin, your entire statement will be made a part of 
the record of this hearing. I would like you to summarize your 
statement. Before you begin, I would like to ask Mr. Mollohan 
if he has any opening statement?
    [The statement of Mr. Goldin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                Opening Remarks of Congressman Mollohan

    Mr. Mollohan. I would also welcome Administrator Goldin and 
compliment him on the good job he is doing at the National 
Aeronautics and Space Administration, and I look forward to 
hearing how he is setting NASA's priorities for the future. We 
recognize how difficult this task is under the current 
budgetary restraints and look forward to working with him to 
try to fund his priorities and move the space program on.
    Thank you, Mr. Chairman. Welcome.
    Mr. Walsh. Thank you, Alan. I second those positive 
comments about your administration. It is a difficult budgetary 
time. No one knows more about that than you and your people, 
and you have been very successful given those constraints. The 
highest priority project seems to be the Space Station, but why 
don't you let us tell us what you have been doing.

                 Administrator Goldin's Opening Remarks

    Mr. Goldin. Good morning, Mr. Chairman and members of the 
committee. I am pleased to appear before you today and present 
the President's budget request for Fiscal Year 2000. For the 
first time in many years, NASA has a projected outyear budget 
that is higher than the budget year request, thanks in great 
part to the efforts of this subcommittee.
    Funding has been added for the International Space Station, 
space science and future launch. I am gratified by the 
Administration's alignment of NASA's priority with theoutyear 
budget. Nonetheless, the request of approximately $13.6 billion for the 
fiscal year 2000 budget is very lean. It is below the fiscal year 1999 
enacted levels, and in fact continues a trend for the last 6 years 
where the NASA budget has come down, and I will submit this chart for 
the record. And it is so tightly constructed that there are several 
areas where concerns have been raised by a number of members. I look 
forward to beginning a dialogue with the subcommittee today regarding 
this budget proposal. Mr. Chairman, we are proud of our accomplishments 
and confident about the future.
    Last year a new star appeared on the horizon of the 
International Space Station. When complete, this research 
center in space will include over a hundred major pieces of 
hardware from 16 countries, delivered by 6 different vehicles 
from 4 launch complexes around the world. It will create new 
opportunities for long term research, such as the growth and 
study of cellular structures, including living tissue and 
protein crystals.
    Our vibrant space science program is producing fantastic 
results as we keep driving down mission costs. We are in the 
middle of an intense launch period of 10 launches in 9 months. 
In fact in one more year the space science budget will exceed 
that of the Space Station alone. We are on track to conduct an 
expedited servicing mission for the Hubble Space Telescope to 
ensure that its outstanding science remains uninterrupted. This 
budget supports the next generation's space telescope which 
will build on Hubble's marvelous results and it will cost about 
one fifth of what Hubble cost, be about 3 times bigger and 10 
times more powerful. We want to establish a virtual presence 
throughout our solar system. We will have fleets of small 
spacecraft, rovers and probes in orbit around various planets 
and moons in their atmosphere on their surfaces and burrowing 
underneath. We will need an interplanetary Internet to assemble 
and send back to Earth the tremendous amount of information 
that will be generated by these robot emissaries. The first 
step of this Internet at Mars is in this year's budget. Our 
Earth Science program is experiencing its most ambitious year 
ever with almost a launch a month for the rest of the year. Our 
research will give us different views of the Earth, water 
vapor, the biosphere, global cloud cover, ocean temperature, 
and crustal dynamics. Collectively, these views will teach us 
how the Earth works as a system. By integrating detailed 
measurements at the global, regional and local levels, and 
combining them with predictive modeling, we hope to be able to 
understand and predict weather and climate on a seasonal 
annual, and ultimately decadel basis.
    Commercial applications of remote sensing will continue to 
grow exponentially, including agriculture, urban planning, 
disaster mitigation, environmental compliance, highway and 
pipeline siting and resource management. NASA continues to push 
the frontiers of flight from general aviation to space access. 
We are developing synthetic vision so pilots will be able to 
see the landscape, no matter what the weather, day or night, 
decreasing the likelihood of accidents. We will push 
revolutionary aeronautics concepts through the X planes and 
develop new engine technology in high temperature materials and 
combustion to lower fuel consumption and improve performance.
    We are looking to the future, when there will no longer be 
a distinction between air and space travel. The revolutionary 
reusable launch vehicle program is demonstrating technologies 
that could dramatically reduce the cost of launching a payload 
to orbit--from today's roughly $10,000 per pound to $1,000 per 
pound--while at the same time improving safety by a factor of 
10.
    This budget continues our space transportation architecture 
studies, to develop an investment strategy for reducing our 
cost of access to space by using commercial capabilities. We 
also have $10 million for next decade planning to ensure an 
appropriate vision for the future that integrates robotic and 
human exploration.
    Our plans for the future will require revolutionary 
approaches, such as Intelligent Synthesis Environment (ISE). 
ISE will enable geographically dispersed scientists and 
engineers to work as a team in a totally immersive, controlled 
real time virtual environment for end-to-end spacecraft design, 
development, test, manufacturing and operation. This will lower 
costs, accelerate development time, and increase mission 
success.
    Because NASA doesn't think small, because we plan for the 
long term, not the short term, this budget is not designed for 
the next decade. It is an investment in the next millennium, 
and NASA is proud to lead the way.
    I would be pleased to respond to questions from you, Mr. 
Chairman and Members of the subcommittee.

                 RUSSIAN EQUIPMENT AND HARDWARE DELAYS

    Mr. Walsh. Thank you very much. I will begin on the Space 
Station. As a result of Russian equipment and hardware delays, 
the United States has had to make a significant investment in 
alternative hardware to compensate for potential Russian 
nonperformance. Two of those items are the interim control 
module and the U.S. propulsion module. Assuming that the 
Russians are not able to complete the service module, when does 
NASA have to baseline the interim control module for launch as 
a replacement for the service module in order to launch the 
Interim Control Module in 1999?
    Mr. Goldin. We are carrying two configurations for the 
Interim Control Module. One, if the service module is not up 
there and, second, as a backup to the propulsion on the service 
module. Late this spring we will have to start doing the 
planning for the Shuttle, and by this fall of 1999 we are going 
to have to make a decision on which configuration we are going 
to have for the Interim Control Module.
    Mr. Walsh. What is the total cost of the Interim Control 
Module?
    Mr. Goldin. $156 million.
    Mr. Walsh. Will the U.S. propulsion module be launched 
regardless of whether the service module is in orbit?
    Mr. Goldin. Yes. We believe that it is the right thing to 
do to launch the U.S. propulsion module. We will have a very 
large investment on orbit. We will have equipment from many 
different countries. It makes the system much more robust 
having the U.S. propulsion capability on orbit. It also will 
allow us to ensure that even if the service module is launched, 
that the Russians have problems in delivering propellant to the 
International Space Station, we could keep the station up in 
orbit with the proper attitude, and the cost is at the present 
time estimated at about $500 million. We will be having a 
preliminary design review this fall, at which time we will have 
a final number, but I believe it will be somewhere around $500 
million, and this year's President's budget covers the full 
cost of this module.

                      SPACE STATION BUILDING COST

    Mr. Walsh. The current estimate for building the Space 
Station is 23.4 billion to 26 billion, which is 6 to 8.6 
billion over your estimate of 17.4. How much of this overrunis 
due to the growth of requirements and how much is due to Russian 
nonperformance?
    Mr. Goldin. First, let me say that our estimate for the 
Space Station at development complete is between $22 and $24 
billion, and the reason we say that is we will have the lion's 
share of the research capability going on at that point in 
time. There is significant overrun. Some would say that the 
overrun is completely due to the Russians. I do not believe 
that is the case. I would say a large share of that is due to 
the Russians in their inability to deliver the hardware that we 
need.
    A significant amount of requirements growth has occurred, 
about a billion dollars to just build additional equipment in 
the United States to back up capabilities of the Russians and 
then another billion dollars is associated with our decision to 
build a crew return vehicle. Based on experience that we had on 
Shuttle-Mir, we felt that it would be necessary to have a crew 
return vehicle capable of taking 7 astronauts back from space. 
The Soyuz vehicle is only capable of taking 3, and we felt that 
it would be necessary to have 2 of these crew return vehicles 
onboard. So I would say a few billion dollars of the cost 
growth is due to these increased requirements. A significant 
portion of the remainder is due to the problems we are having 
with the Russians and growth due to our own contractors.

                      SPACE STATION COST OVERRUNS

    Mr. Walsh. So that would put the Russians' responsibility 
for overruns in the $4 to $6 billion category?
    Mr. Goldin. I wouldn't say that it is that much. We have 
some growth at our contractors. For the record, we would be 
happy to give you the exact numbers, but my recollection is 
that the cost growth at Boeing is about a billion dollars and 
internal to NASA is about a half million to $700 billion.
    Mr. Walsh. That is attributable to the Russians?
    Mr. Goldin. Not attributable. So the remainder of the 
number is attributable.
    Mr. Walsh. So it is a substantial amount of money?
    Mr. Goldin. Yes.

                    SPACE STATION SCHEDULE SLIPPAGE

    Mr. Walsh. How about slippage in the schedule?
    Mr. Goldin. Schedule slippage is part of the issue that we 
have in terms of delays from the Russians. I don't have all of 
the numbers clearly in my head, but we can submit for the 
record the breakout of those numbers.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      RUSSIAN SPACE AGENCY BUDGET

    Mr. Walsh. In 1998, the Russian Space Agency budget was 
600.2 million, of which it received 187 million from the 
Russian government and another 60 million from the U.S. Last 
year NASA estimated that the Russian Space Agency needed about 
300 million in 1999 to meet ISS obligations, of which NASA 
proposed to provide 150 million. In your estimate of the 
Russian Space Agency's funding requirements, are those figures 
still accurate?
    Mr. Goldin. I don't know. The major problem we have in 
determining how much the Russians need is our ability to 
convert Russian rubles, which is what the budget is 
appropriated in, into dollars. And given the variability of the 
exchange rate of rubles to dollars, A and B, the real effect of 
usage of rubles in Russia is very hard for us to estimate it. 
That is one of the dilemmas we have.
    Secondly, that $300 million number assumed that the 
Russians were going to build the science power platform and 
research modules unique to them and right now their decision is 
to build the hardware that is only essential to keep the Space 
Station going. So they have pulled back on some of their own 
needs and prioritized the needs that allow everyone else to 
proceed. So it is very hard for us to explain that, and that is 
the best explanation I can give.
    So far I can say that on the things that they promised to 
do this year they have been performing and in fact the service 
module is almost ready to be packed up and shipped to the 
Baikonur Cosmodrome. They are within a few weeks of being able 
to pack it up and ship it to the Cosmodrome.
    I don't know how to answer the question more specifically 
than that.

                       RUSSIANS AS A FULL PARTNER

    Mr. Walsh. We started out with the Russians as a full 
partner where they get equal flight time and use of the labs 
and so forth. Are they fulfilling their role as a full partner 
or are they just like a subcontractor now?
    Mr. Goldin. No, at this point in time they still are a full 
partner. If they deliver that service module in roughly the 
time frame that they are supposed to--there are 3 things that 
we are expecting from the Russians. We would like that service 
module delivered on orbit in the fall of this year. We would 
like them to be able to produce three Progress per year and 
deliver them to orbit and two Soyuz per year and deliver them 
to orbit. That is absolutely crucial to us, and we would also 
expect that the Mir Space Station will be deorbited unless they 
can get funds outside of the Russian Space Agency to operate 
that Mir Space Station. These are the three things that we 
believe are essential to the Russians meeting their obligations 
to the International Space Station. And if they do that, they 
will be considered full partners. Up to the present time we 
have purchased specific goods and services from the Russian 
Space Agency and we have not in any way subsidized them.
    Mr. Walsh. Would you like me to yield?

                            DEORBITING PLAN

    Mr. Frelinghuysen. Thank you. What does that mean? 
Translate that statement into English. When you were here last, 
you said that there would be a plan by July, didn't you? A 
deorbiting plan?
    Mr. Goldin. We have such a deorbiting plan on the Mir.We 
have a document from the Russians which said that in August of this 
year the Mir station would be deorbited. They indicated that there are 
some private investors that were interested in having a private 
operation of the Mir Space Station. We told the Russians that they are 
a sovereign nation. It is not for us to tell them what they should do 
with their resources as long as they pay their bills on the 
International Space Station.
    Mr. Frelinghuysen. Thank you.

                         INTERIM CONTROL MODULE

    Mr. Walsh. On this interim control module issue, you said 
late fall for a final configuration?
    Mr. Goldin. Yes.
    Mr. Walsh. If that is the case, what is the earliest time 
you can get that into orbit?
    Mr. Goldin. The spring of 2000. That is governed by the 
fact that the FGB has electronics that have been certified for 
about a year and a half. And if we do not have the service 
module on orbit to protect the FGB and the unity node that we 
have up there, we would have to launch the ICM by the spring of 
2000 to keep continuity on orbit.

                             SERVICE MODULE

    Mr. Walsh. What does that do to the schedule?
    Mr. Goldin. That would be a major slip to the schedule. It 
will slip the time at which we would have human presence. If we 
have the service module on orbit in the fall of this year, we 
anticipate that we will have permanent human presence onboard 
the Space Station by early 2000.
    If they do not launch the service module, we would not have 
human presence for a year or two after that. I want to come 
back and say at the present time the testing is almost complete 
on the service module; 500 of 570 tests are complete. The plan 
is to pack and ship the service module to Baikonur and I 
believe the date at which it is due to arrive at Baikonur is 
May 7.
    Mr. Walsh. Will those additional tests be conducted at 
Baikonur?
    Mr. Goldin. I am sorry, I don't understand the question.
    Mr. Walsh. You said 500 of 570 tests.
    Mr. Goldin. There are 70 tests missing because of 4,030 
pieces of hardware; 36 pieces of hardware will be shipped to 
Baikonur to be integrated down there. So they couldn't perform 
the remaining 70 tests, and those tests will be done down at 
Baikonur.
    Mr. Walsh. When you say 500 tests have been completed, does 
that mean that they have been completed successfully or 
adjustments have been made to make them successful?
    Mr. Goldin. I believe the tests have been successfully 
completed, but I can check the data when I have a break and I 
can answer that more specifically.

               PURCHASE OF GOODS AND SERVICES FROM RUSSIA

    Mr. Walsh. You have indicated that NASA intends to request 
another 100 million to be sent to Russia in April of 1999. What 
specifically does NASA plan to buy for that $100 million, and 
how much will each item cost?
    Mr. Goldin. The most important item that we intend to buy 
is a Soyuz vehicle. We have a very, very tight schedule for 
building the crew return vehicle. It will be the first new 
piloted vehicle that the United States has developed in over 25 
years.
    But we would like to start six-person operation on board 
the Space Station as soon as possible. The Chabrow panel had 
recommended to us in their review of the Space Station that we 
consider buying an insurance policy by having one or two extra 
Soyuz vehicles in advance. So we have prenegotiated a price but 
we have not committed to buying it. We believe that price would 
be about $65 million to get the Soyuz vehicle.
    Other things we are considering is we would like to buy 
some simulators for our training of our crews for the service 
module and FGB that we could use in the zero gravity facility 
down in Houston. There are a number of other specific pieces of 
hardware: A Russian virtual reality trainer, ORLAN maneuvering 
unit, equivalent to the U.S. SAFER.
    Mr. Walsh. Rather than going through the whole list, this 
number, a hundred million, is that a number you just plug to 
the Russian Space Agency in order for it to continue operation? 
To keep them gainfully employed?
    Mr. Goldin. We had made an estimate last year and that was 
the $300 million estimate you referred to, we anticipated that 
they would get about $150 million equivalent in funding from 
the Russian Space Agency and that--we had needs for specific 
pieces of hardware which tallied up to about $100 million. In 
fiscal year 1999, we sent them $60 million to buy specific 
items that was a benefit to us. We got an initial 4,000 hours 
of crew time and we got storage space. We bought those items 
that we needed, but on the other hand had we not bought those 
services, we think that the activity on the service module 
would have ground to a halt. So it is a combination of the two.
    Mr. Walsh. Thank you. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. Mr. Goldin, welcome 
to the hearing.
    Following up on the chairman's line of questioning, you 
were itemizing what necessary components to the International 
Space Station Russia is providing, and you started listing a 
number of components. Are they critical path components that 
you are purchasing?
    Mr. Goldin. These components would allow us to do--where is 
that piece of paper that I had?
    Mr. Mollohan. Are these 1999 purchases that you are talking 
about or are they projected for 2000?
    Mr. Goldin. 1999. No, there is no money in the budget 
beyond 1999 to purchase specific goods and services from the 
Russians. Last year as part of the planning process we had 
looked at the possibility of including in the budget request 
for fiscal year 2000 $150 million a year for 4 years to buy 
specific goods and services from the Russians.
    On reflection, during the preparation of the fiscal year 
2000 budget, we made a decision that it would demotivate the 
Russian government from paying the bills to the Russian Space 
Agency if we had a line item in our budget of $150 million a 
year. So as part of the process with the administration, we 
decided that we would not request $150 million a year over a 4-
year period because we felt it was very important that the 
Russian government meet its commitment to the Russian Space 
Agency.
    I might say here that the Russian Space Agency has 
performed very, very well and whenever they have been funded, 
they have done terrific work. So we wanted to motivate the 
Russian government to pay the Russian Space Agency the dollars 
that they appropriate for them. The dilemma we have is the 
dollars get appropriated, but they don't get funded, and that 
causes a tremendous problem in planning for us which causes the 
cost growth that we talked about earlier.

                          CRITICAL PATH ITEMS

    Mr. Mollohan. Are the goods and services that you 
arepurchasing in 1999 critical path items? What would be the impact of 
failures of delivery?
    Mr. Goldin. Well, we believe the purchase of a Soyuz 
vehicle is really an essential element. It will allow us to do 
much more research. If the crew return vehicle is not 
available, we will only have to limit the total number of 
astronauts to three. At that point in time we will have 17 
racks available of research space on the Space Station. There 
will be an additional 5 racks in the Japanese experimental 
module of which the U.S. is entitled to 50 percent. We will 
have a whole series of express racks, so we feel that it would 
be a tremendous loss of research capability if we didn't have 
the insurance policy of having this extra Soyuz vehicle.
    Secondly, the Russians having the hard cash from this Soyuz 
vehicle allows them to keep their labor force engaged, so I 
want to be sure that it is clear. We are getting specific 
things that we want, but it also provides a certain level of 
stability in 1999 to keep the program going when we are going 
through the most critical phase. We want that service module on 
orbit. We could have significant delays measured in years and 
cost growth measured in a very large number if we don't have 
it. So it is for those reasons that we feel strongly that we 
should have the flexibility to buy that Soyuz vehicle should we 
need it.
    Secondly, there is a list of other items that we are 
interested in.
    Mr. Mollohan. Is the Soyuz included in the hundred million 
figure?
    Mr. Goldin. Yes, it is 65 of the hundred million. And then 
there are 35 million of other things that will help our 
training and reduce our costs. We could buy things in Russia at 
a much lower value than it would cost us to do it in the United 
States, so we think that it would be in the interest of the 
program to do those things.
    But at the end of 1999, we have no planned money in the 
budget for any further purchases of goods and services. We will 
just have to monitor the situation and take appropriate steps 
in the future. But we feel strongly that to put money in our 
budget from 2000 to 2003 would disincentivize the Russian 
government to pay the bills.

                             Service Module

    Mr. Mollohan. Do you think the continuing problem with the 
service module, that is to say the lack of resources coming 
down to the Russian Space Agency, been solved? Or do you 
anticipate it continuing?
    Mr. Goldin. We believe that we are over the worst of our 
problems with the service module. There has been unbelievable 
progress on the service module since we purchased additional 
crew time for that $60 million, and they are almost finished 
testing the service module. The hardware that is supposed to be 
shipped to Baikonur is almost ready to be shipped and the 
Russians have demonstrated to us with the Spektr and Priroda 
modules earlier in the Mir program that they can process 
equipment at Baikonur in about 4 months and have it ready for 
launch.
    Some of our people think that it will take another month or 
two, but we believe that we are on a path to get the service 
module on orbit in the fall.

           Funds from Russian Government to the Space Agency

    Mr. Mollohan. What is the situation with funds flowing from 
the Russian government to the Russian Space Agency?
    Mr. Goldin. It is inconsistent. The Russians, as you know, 
have----
    Mr. Mollohan. Is it improving?
    Mr. Goldin. This year for January, February and March, the 
Russian Space Agency has received their allocated funding from 
the Russian government. This is something that is a very 
positive sign, but generally we see the problems occurring in 
the April to August time frame, so it will be very important to 
us this year to see whether the funding will come from the 
Russian government in that time frame.

                         Service Module Launch

    Mr. Mollohan. When do you expect the service module to be 
launched?
    Mr. Goldin. The Russians have told us that they are still 
planning on launching it September 20. Our people think that 
they could be 1 to 2 months later than that.
    Mr. Mollohan. What are the consequences?
    Mr. Goldin. We could accommodate the 1 to 2-month slip and 
keep the program on track. If it goes beyond the 1 or 2-month 
slip, we will have cost impact and schedule impact to the 
program.

                    Russian Program Assurance Money

    Mr. Mollohan. What is the Russian program assurance money 
$200 million being used for?
    Mr. Goldin. $156 million is for the Interim Control Module 
(ICM). The remainder is to buy specific goods and services. 
Like we had them modify the docking adaptor on the FGB to 
accommodate some of our equipment. That allows us to keep the 
program going in the event that they don't perform.

                        Boeing Contract Overruns

    Mr. Mollohan. You indicated in answers to the Chairman that 
part of the billion dollars in overrun cost are attributable to 
Boeing's contract. How much of that overrun do you attribute to 
Boeing?
    Mr. Goldin. Right now I think the exact number is $783 
million. I round it up to the nearest billion dollars. But the 
exact number that Boeing is carrying is $783 million.
    Mr. Mollohan. What are you doing about that? How are you 
dealing with it?
    Mr. Goldin. Boeing's award fee was impacted by it.
    Mr. Mollohan. In what way?
    Mr. Goldin. One time they got zero award fee.
    Mr. Mollohan. That was a couple of years ago, wasn't it?
    Mr. Goldin. And they have performed pretty well since then. 
This is a very tough program. Boeing on average has been a good 
contractor. Boeing, like NASA, had not participated in a major 
program like this in over 20 years. There were some very 
significant startup problems. But after we got over the 
problems a year or two ago, Boeing has been performing very, 
very well.
    Mr. Mollohan. So the overruns are past history?
    Mr. Goldin. Yes. That is correct.

                        Space Station Amendment

    Mr. Mollohan. A final question, Mr. Chairman, on this 
round.
    When we go to the floor every year, there is usually an 
amendment to knock out the Station. While I have certainly 
supported the ISS and we have always defeated the amendment, I 
want to give you the chance to add something.
    Mr. Goldin. No, not at all.
    Mr. Mollohan. I would like to give you an opportunity to 
help us make the case to defeat an amendment to remove the 
Station program from the budget; and perhaps you can comment on 
it now and then follow up with a submission for the record.
    Mr. Goldin. I would be pleased to give a summary and we 
will follow up for the record. The International Space Station 
program in my mind is one of the most difficult things that 
this government has ever undertook. Clearly theManhattan 
Project and the development of the ballistic missiles was much, much 
tougher at the time it was undertaken.
    But other than those two programs, I know of no more 
difficult program due to the international interaction we have. 
We have 16 nations working on this program. We are going to 
have a hundred launches from six different launch vehicles from 
four different launch complexes.
    This vehicle is bigger than the U.S. Capitol. It is 200 
miles above the ground. The first two pieces of equipment that 
we sent up there weighed tens of thousands of pounds and they 
were built 10,000 miles apart. They never were preintegrated. 
The first place they got integrated was on orbit. This has 
never been done before, and we only did it with some tens of 
hours of assembly time on orbit. In my mind that is a 
spectacular success, and it is testimony to the outstanding job 
this team has done.
    We have had some problems, but in the big picture these 
problems have been very well managed and in fact an outside 
panel has complimented NASA for doing a very sound job.
    This Space Station is essential if we are ever to leave 
Earth orbit, which we will do as a society. We must understand 
how people could live and work in space and we must understand 
how to develop countermeasures to counter the debilitating 
effects that occur to people both physically and 
psychologically. We must learn how to integrate robots and 
people. We must learn how to develop telemedicine and medical 
approaches so that if people are traveling 25,000 miles an hour 
and 50 million miles from Earth and if they get sick, we can do 
that in real time because they cannot go to a hospital.
    We are going to develop communications technologies that 
will be unbelievable. On Earth we communicate over tens of 
thousands of miles. We will be communicating over hundreds of 
millions of miles. The time delay is 20 to 40 minutes at the 
speed of light to communicate with these people. During Apollo 
we had tens of thousands of people on the ground to operate 
this system. The system will have to have an intelligence in 
and of itself. There is more computing power in your car today 
than we had on Apollo 11. We will be developing intelligence 
systems that will have enormous impact on the ground, based 
upon doing such a mission. We will have to be able to assemble 
millions of pounds in orbit. This is what is going to be 
necessary and without this Space Station we will never ever do 
it. And the issue is do we have a vision that this society is 
going to boldly lead the world in the 21st century or is it 
not. The Space Station is a litmus test of that activity.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Mollohan. Thank you. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, Alan. Mr. Frelinghuysen.

                   Savings Due to Russian Involvement

    Mr. Frelinghuysen. Good morning, Mr. Goldin.
    Last year the new chairman, Mr. Walsh, made a few remarks 
on the record and I was looking it over and I would like to 
quote from him and your reaction.
    ``On the Space Station now the Clinton administration 
invited the Russians to join the Space Station back in, I 
believe it was, 1993 and their participation was justified by 
the claim that the American taxpayers would save over $2 
billion with that partnership. Now two hardware delays in 
Russia and the cost of the Space Station have risen by over $2 
billion, and as my colleague from New Jersey pointed out,'' he 
is referring to me, ``there is some expectation it could be an 
additional 2 billion for an increase of 4 billion. Have all of 
those savings that we were told about evaporated?'' This is Mr. 
Walsh's question.
    Where do we stand now in 1999 because your answer last year 
was, ``At the present time, the Russian delays in funding to 
their space agency have caused significant cost impact to the 
United States. If this continues, we will use up that $2 
billion in savings we had in the development phase.''
    Where do we stand now?
    Mr. Goldin. I believe that we will not see a savings with 
the presence of the Russians.
    But let me come back and remind you one of the main reasons 
we wanted the Russians in the program. The Vest panel led by 
President Vest of MIT indicated it was essential to have dual 
access to space. The Russians have the Proton, the Soyuz and 
the Progress vehicles. We will have a very expensive asset on 
orbit. We have had a circumstance where the Shuttle was down 
for a couple of years when we had a problem. Having the backup 
of those Russian vehicles we believe is still essential today, 
as it was when we started the program.
    Clearly we are very disappointed that because of the 
Russian economy we have not achieved the savings we wanted to 
achieve. I might point out during the Cold War the Russian GDP 
was about half that of the United States and today it is about 
1/22nd. There is a very significant economic problem in 
Russian. This is something that we cannot control.

                           Deorbiting the Mir

    Mr. Frelinghuysen. How much money will you save by 
deorbiting the Mir?
    Mr. Goldin. It is not a question of saving money. We 
believe the Russian government, unless they deorbit----
    Mr. Frelinghuysen. We want to go ahead with the Space 
Station. We have our partners. You have a plan for deorbiting 
the Mir. It is a little unclear to me when that plan takes 
effect.
    Mr. Goldin. August.
    Mr. Frelinghuysen. From that point to what point, and for 
how long will it take to bring the Mir down? Isn't that what we 
are talking about by deorbiting?
    Mr. Goldin. We believe it will come down in August.
    Mr. Frelinghuysen. Will there be savings by bringing it 
down, which means that we can make more investment in the 
International Space Station?
    Mr. Goldin. The Russians we don't believe can afford to 
have the Mir on orbit and fund the International Space Station 
given the budget conditions they have.
    Mr. Frelinghuysen. With all due respect to their budget 
considerations, what are our budget considerations if the Mir 
comes down? What do we save on an annual basis? We are 
presently investing in our partnership with the Mir?
    Mr. Goldin. We are not paying any money into the Mir Space 
Station. We are done. When the last Shuttle went up to the Mir, 
we are not spending any money on the Mir Space Station. The 
amount of dollars that we are spending on Mir at the present 
time is zero. So it is not a question of any money coming out 
of the U.S. budget to keep Mir in the sky.
    Mr. Frelinghuysen. How much will the Russians be saving?
    Mr. Goldin. My estimate is something on the order of $50 to 
$100 million equivalent per year. But they don't have that 
money and it is essential that if they don't have any private 
sources paying to keep Mir in the air, Mir has to come down. We 
have made that very clear to them. The International Space 
Station has to be their number one priority. And by April they 
said if they do not have private financing to keep the Mir up 
in the sky, it will come down in August as they have promised.

                            Russian Partners

    Mr. Frelinghuysen. The public perception, and to a certain 
extent we represent the public, is that we are often forgiving 
of our Russian partners. We talked about this last year and you 
tried to sort of correct the record in saying that there were 
good reasons why we need to be supportive of Russian, but for 
those of us who serve on other appropriations committees, we 
are looking after their nuclear stockpile to a certain extent 
and for good reason. We are helping them with their nuclear 
reactors to the extent that we can in terms of clean up and 
decommissioning. We are hiring their scientists, perhaps for 
good reason, like 7,000 of them, and I am told that they have 
70,000 that deal with nuclear weapons. We make a substantial 
commitment to Russian. How many people are there in the Russian 
space program, employees?
    Mr. Goldin. Tens of thousands.
    Mr. Frelinghuysen. 50 thousand, 60,000?
    Mr. Goldin. We have heard numbers that range between 50,000 
and 70,000.
    Mr. Frelinghuysen. And what is our relationship with these 
people? Have we hired any of these people?
    Mr. Goldin. No.
    Mr. Frelinghuysen. Do we know what the ultimate disposition 
of this workforce is? Are they all employed or are they 
potentially out there for the picking by our potential 
adversaries?
    Mr. Goldin. Let me see if I can answer it this way. I want 
to come back to what I said. During the Cold War when we were 
adversaries, the Russian GDP was about 50 percent of the United 
States. It is now 1/22nds of the United States. It is very 
chaotic in Russia. People in the United States take for granted 
getting a paycheck. Sometimes the Russian people do not get 
paid for 2 or 3 or 4 months.
    Mr. Frelinghuysen. My question is are there ways that we 
are taking advantage of this knowledge and their technology?
    Mr. Goldin. We are relying upon their Progress, Soyuz and 
Proton rockets as backup to maintain the Space Station up in 
the orbit. We have had an incredible learning from the Shuttle-
Mir experience that has caused us to redesign the Space 
Station. The Russians contribute every day to making the Space 
Station a much better facility. If we--when we redesigned the 
Space Station, we would not have permanent presence until 
September of 2003. We now feel that we are very close to having 
permanent presence 3 years early. That will allow us to do an 
enormous amount of research. We bought 4,000 hours of research, 
astronaut time from the Russians----
    Mr. Frelinghuysen. We are buying astronaut time. What about 
all of these employees. What are they doing?
    Mr. Goldin. They are working on equipment.
    Mr. Frelinghuysen. To what degree are the tens of thousands 
of people that have been working with their space program, one 
would assume that their work with us is going to advance 
science and knowledge, but they obviously have defense 
satellites and other space work that has to do with their 
national security. To what extent do we monitor that activity?
    Mr. Goldin. We are a civil space agency. We only work with 
the civil space program. I refer you to the people in the 
foreign policy establishment in the United States that will 
work with the Russians on other activities.
    Mr. Frelinghuysen. But my point is, and this is my last 
point, we are in partnership with the Russians at the very time 
when some part of their apparatus continues in a way that might 
be considered to be somewhat adversarial in terms of their 
national defense, the building up of their national defense. We 
seem to come to their aid relative to space exploration and the 
Mir, but in reality they continue to build up their defense 
capabilities that come through their space program in terms of 
bigger and better satellites and defense, quite honestly 
espionage, I would assume.
    Mr. Goldin. I don't think that it is appropriate that the 
NASA Administrator comment on the thrust of what you are 
saying. But in civil space, the Russians are employing tens of 
thousands of people that could be working on other things in 
civil space. These people have done a superb job when funded by 
their government.
    We have a significant benefit of having a backup system 
with the Proton, the Soyuz and the Progress in case our own 
Shuttle has a problem. If we did not have the Shuttle-Mir 
series of flights, we would not have the safest Space Station 
as we have today. There is a lot of research that is going on 
in zero gravity that the Russians have worked on that has 
helped us do better experiments in zero gravity. There has been 
a very significant technical benefit that we have accrued by 
working with the Russians. It is not as though we are doing the 
Russians a favor.
    And on the duration of this program we have not given the 
Russians any grants. Everything they have done for us has been 
in the interest of the United States activity on the 
International Space Station.
    Mr. Frelinghuysen. If the Russians do not deorbit the Mir 
in August, should we take that as a sign that they are not 
serious about the Space Station?
    Mr. Goldin. If the Russians are able to obtain outside 
commercial financing to make a commercial venture out of the 
Mir Space Station, and under that condition they keep it up in 
the sky without impacting the deliveries to the International 
Space Station, I think that that would bode very well for the 
commercialization of the International Space Station.
    But if the Russians keep the Mir up in the sky and use 
government resources that should go to the International Space 
Station, I think it would cause a very severe problem in our 
relations in civil space.
    Mr. Frelinghuysen. It would destabilize our partnership in 
a very major way?
    Mr. Goldin. I would say that would be a very negative 
activity if they were to do that.
    Mr. Frelinghuysen. Thank you. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, Mr. Frelinghuysen. Mr. Cramer.

                        SPACE LINER 100 PROGRAM

    Mr. Cramer. Welcome, Mr. Goldin, to the committee. I want 
to talk to you about space transportation issues. I am an avid 
supporter of space transportation issues and of course you 
recognize that we have got to lower the cost of access to 
space. There are currently projects that you are carrying on, 
NASA is carrying on with the private industry on launch systems 
that will reduce launch costs by a factor of 10; is that 
correct?
    Mr. Goldin. Yes.
    Mr. Cramer. Talk to me about the Space Liner 100 program 
that examine ways to reduce launch costs by a factor of 100.
    Mr. Goldin. The cost to access to space has been about 
$10,000 a pound and the reliability has been measured in parts 
per hundred for potential failure. This is not adequate. The 
Americans are still flying the Atlas, the Delta and the Titan, 
which were developed over 50 years ago by a number of great 
Americans, but we should not be flying these vehicles. The 
Shuttle was developed almost 30 years ago and we are still 
flying it. The Shuttle computational capacity is not as great 
as that of a laptop computer. We now carry 20 laptops on the 
Shuttle. Something radical has to change in America.
    We used to launch 80 percent of the world's commercial 
spacecraft and we now launch 30 to 40 percent and you only have 
to pick up the newspaper to see what is going on in the rest of 
the world relative to launch. NASA is committed to 
revolutionizing launch, not making small evolutionary changes. 
Our first step was the X-33 and X-34 program, which would 
improve reliability by a factor of 10 and reduce costs by a 
factor of 10, and we think that we are on track within a decade 
to make that happen. But if we are going to be able to defend 
the Nation, if we are going to be able to really open the space 
frontier and have the laws of economic elasticity apply and 
achieve the goals that NASA has, we must get to a factor of 100 
reduction in cost and a factor of 10,000 improvement in 
reliability.
    This requires radical new information technologies. This 
will require radical new rocket technologies, materials 
technologies, and it is essential that we get on a path to make 
this happen. We have been exploring the concept called Space 
Liner 100 with just those goals and the folks down at NASA 
Marshall have come up with a concept where we use air out of 
the atmosphere rather than carrying oxidizers, which represents 
up to 70 percent of the weight of the vehicle.
    We are looking at advanced technologies in materials and 
the way we initially launch it. Presently we launch vertically. 
We are looking at magnetic levitation launches, things out of 
science fiction, that could get the vehicle up to 600 miles per 
hour launching horizontally. We think these technologies are 
essential. Unfortunately, the present budget does not allow 
adequate resources to do those things.
    Mr. Cramer. Why do we need a program like the Space Liner 
100?
    Mr. Goldin. If we intend to lead the world in the 21st 
century, space is a very crucial element. If people want to 
develop access in space, they cannot afford to pay $10,000 a 
pound to take payload up nor can they afford $1,000 a pound. We 
have to get closer to $100 a pound.
    NASA is developing the technologies that will be available 
to the Department of Defense should they desire to perform 
missions up in space. This Space Liner 100 would give them the 
technologies that they need a generation from now to cause that 
to happen.
    Mr. Cramer. Is it a demonstration program?
    Mr. Goldin. Yes.
    Mr. Cramer. In partnership with private industry?
    Mr. Goldin. Clearly in partnership.

                      ADVANCED PROPULSION PHYSICS

    Mr. Cramer. If we are going to do what you want to do, we 
have got to have a revolution in our understanding of advanced 
propulsion physics. Are we committing ourselves with funding 
and programs to advance ourselves in that category?
    Mr. Goldin. We are doing the best we can, but I have to 
point out that our budget has come down every year for 6 years. 
I don't know of very many other agencies that have that, yet we 
continue to push the technological barriers. But at the present 
time we do not have the resources for a very robust program in 
the advanced technologies you have mentioned. It is a very lean 
program.

                 LIFE AND MICROGRAVITY SCIENCE MISSIONS

    Mr. Cramer. I want to talk to you about life and 
microgravity science missions. Why are those missions being 
omitted from the Shuttle manifest?
    Mr. Goldin. We are not omitting them from the Shuttle 
manifest; but once again the issue that we have is that we are 
building a Space Station. The NASA budget is not going up. We 
have to reprogram resources within our own budget to fund the 
things we have to do. I would love to spend more money in this 
area, and in fact we would love to have a number of dedicated 
additional missions on the Shuttle in this area, but at the 
present time we don't have all of the resources.
    Right now over the next 4 years we will perform about 60 
percent of the life and microgravity research that we have 
performed on the Mir and on the Shuttle between 1995 and 1998. 
We are putting additional lockers into the Shuttle and in the 
next year or two we will get up to 5 additional lockers where 
we can do additional research. We are developing express racks 
to put on the International Space Station. With the additional 
crew time that we have purchased from the Russians, we will be 
able to have a good program. But we are building the Space 
Station and there will be a period that we will not be able to 
do all of the research that we would like to do.
    But I would like to help you understand the dilemma we have 
at NASA. I am very troubled by not being able to do this, but 
once again I want to show you this chart because I didn't show 
it to you before.
    This is the NASA budget for the last 6 years. We aren't 
corrected for inflation. In real terms our budget has come 
down. We are doing what any good business does. You take your 
highest priority and you fund them and you cut your lowest 
priority. This is what the American people have asked of us. If 
the budget is to be balanced, you have to make hard decisions 
and if you try and fund everything inadequately, you do an 
inadequate job.

                     MICROGRAVITY SCIENCE RESEARCH

    Mr. Cramer. Coming along this line, though, you have 
microgravity science research under two budget lines. The first 
is the life and microgravity sciences and applications and the 
science aeronautics and technology appropriation, and then you 
have part of it under the International Space Station side. 
Because of budget overruns, schedule slips, decreased Russian 
participation, has that as much jeopardized what we have not 
been able to do on the microgravity science side?
    Mr. Goldin. First, let me say that we are funding all of 
the investigators that we committed to fund for ground-based 
research, and we are ramping up to 900 investigators. We 
committed to that a number of years ago. We are funding all the 
key facilities, the core facilities for the Space Station.
    The place that we have cut back a little bit, and I 
emphasize a little bit, measured in tens of percentage points, 
is in the unique research that is going to be done on orbit.
    If you will, the analogy I have is we are building a house 
and it is very difficult to make all your meals in the kitchen 
while you are building the house. It is verydifficult.
    Now, if we could have additional money, it would be about 
$110 million, we could fly some additional dedicated shuttle 
missions that would allow us to fill in the gap of the missing 
research that we are having in the life and microgravity 
sciences, and it is not for lack of wanting to do it, it is 
just the issue of being able to prioritize, given the fact that 
our budget keeps coming down.
    Mr. Cramer. Well, are we more protected now, though? 
Because you said, I think I heard that the overruns are over 
with, or we think they are for a while, and that the Russian 
participation is a date certain for ending. So will that make 
the microgravity and life sciences commitment under the Space 
Station budget more reliable?
    Mr. Goldin. I certainly hope so. I certainly hope so. But 
it is a very difficult grind to be able to continuously adapt 
with a declining budget.

                         RUSSIAN SPACE AGENCIES

    Mr. Cramer. All right. If I could, one additional question 
about Russian space agencies. Eight of us went over there 
recently to address the Russian Duma over ballistic missile 
defense, but we met with the Khrunichev folks. Now, there are a 
number of opportunities, from the private sector with the 
Russian engines, but the space agency issues are divided 
between two agencies in Russia, are they not?
    Mr. Goldin. I am sorry, I----
    Mr. Cramer. From the Russian government's point of view, 
who controls the engines, the space engines that we have relied 
on?
    Mr. Goldin. The Russian aerospace industry is a little 
different than ours. In America, we have NASA, which is wholly 
controlled by the Federal Government, and we at NASA work with 
independent corporations that have no relationship to the 
government.
    In Russia, the Russian Space Agency owns a percentage of 
some of the corporations that do work for them, and it is a 
much more complex relationship. They have not completed the 
full activity towards privatization and separation of 
corporations and the government.
    Given that role, the Russian Space Agency for civil space 
activities is responsible for the engine work. However, 
Khrunichev has a number of contracts, commercial contracts 
where they sell launch services to other countries and 
companies around the world. The lion's share of those launch 
activities go through a partnership they have with the Lockheed 
Martin Company. How the Russian Space Agency relates to that 
activity I do not know.
    Mr. Cramer. All right. Thank you, Mr. Chairman. That's all 
I have.
    Mr. Walsh. Thanks, Bud. Mr. Sununu.

                        SMALL PLANETARY MISSIONS

    Mr. Sununu. Thank you, Mr. Chairman.
    Welcome, Mr. Goldin. Let me begin by just emphasizing how 
much I appreciate the difficulty of your task, and your 
relative success over the past several years, particularly 
making the transition from some of the most costly human space 
flight elements of the program and toward the smaller programs, 
leaner packages, as you have described them in your opening, 
and you have a very interesting graph in your presentation that 
shows the 11 small planetaries, many of which have received 
well justified accolades in their success, and more 
particularly in the level of their success relative to their 
cost.
    So again, I think you have done a good job with the 
resources you have had, and I certainly applaud the transition 
in the mission, but obviously that doesn't change the fact that 
as Members of Congress responsible for appropriations, we are 
going to be concerned with the types of issues that have been 
spoken of previously, the Space Station and cost to Russia, and 
what is going to happen with Mir, and whether or not we are 
spending the $13.6 billion as effectively as we can.
    Let me begin by asking about those small planetary 
missions. I am certainly not familiar with them all; I am 
familiar with a few. But rather than talk about history, let's 
talk about the future. What is the mission of the Genesis, 
which is scheduled to launch in early 2001?
    Mr. Goldin. Genesis will go out and bring back samples of 
the solar wind and particles that come off the sun that people 
in the solar terrestrial physics field would like to get a 
better understanding of, and it will help us understand how our 
own sun operates.
    Mr. Sununu. You say go out and bring back, but it is not 
going to return to Earth?
    Mr. Goldin. Yes, it is. It is going to bring back----
    Mr. Sununu. What is its orbitary path, then? How far out 
does it go?
    Mr. Goldin. I believe it will stay at about one 
astronomical unit, but it will leave Earth orbit, collect the 
material----
    Mr. Sununu. So it will be able to measure the solar winds 
in close proximity to Earth and it will go one astronomical----
    Mr. Goldin. It is about 93 million miles away from the sun.
    Mr. Sununu. Okay. And then return. So it will be the solar 
winds in that entire transition space.
    Mr. Goldin. It will collect samples from the solar wind and 
then land it back on Earth where we can analyze it in the 
laboratory.

                                 TRIANA

    Mr. Sununu. Measuring the solar winds, that is one of the 3 
scientific packages on the Triana as well, is that correct?
    Mr. Goldin. Yes.
    Mr. Sununu. And that in that sense it will be, although 
this doesn't launch until 2001, it will be redundant to one of 
the three packages on the Triana?
    Mr. Goldin. Triana is a package that will be looking 
towards the sun, and this package will be, if you will, a 
weather station of the solar flux coming to Earth. This is a 
very important measurement, because understanding that will 
help us give early warning to communications spacecraft. It 
will be important to give early warning to people that operate 
power plants. But it will be a monitor, not a sample 
measurement. It is two different measurements. They are 
complementary, if you will.
    Mr. Sununu. There will be no other satellite in the L-1 
position measures solar wind?
    Mr. Goldin. At the present time, there is a spacecraft 
there called ACE. That is a measurement of the solar wind. ACE 
was launched a few years ago, and its operational life will be 
over and Triana will be an additional set of measurements for 
that.
    Mr. Sununu. So there is a craft there that is measuring 
solar wind?
    Mr. Goldin. Right.
    Mr. Sununu. That is obviously somewhat problematic tothose 
of us that are looking at the cost-benefit of these various projects, 
that there is redundancy in that particular area of Triana's mission. 
But before getting into detail on the other components of the mission, 
let's talk about the cost, just so that I am clear on the cost. As I 
understand it, the estimate right now is $75 million, is that correct?
    Mr. Goldin. Yes, that is correct.
    Mr. Sununu. Over the past year, the estimate of cost has 
increased by 50 percent, from $50 million to $75 million. And I 
think it is a very legitimate question. What assurance do we 
have that it is not going to increase by another $25 million by 
the time we next get together here?
    Mr. Goldin. With regards to Triana, our assessment for the 
initial system was $50 million. When we went out for inputs 
from the scientific community, they had recommended some 
additional instruments and it is those additional instruments 
that we put onto the spacecraft that led to the $25 million of 
added cost. But from a science-to-cost-benefit ratio, we 
thought it was the right thing to do.
    Mr. Sununu. Does that $75 million include the cost of 
launch?
    Mr. Goldin. Yes. It is a secondary payload on the Shuttle.
    Mr. Sununu. My sense is that the reason some of these other 
packages were added on, and the reason the cost was increased 
another $25 million is because there was I think very limited, 
if any, scientific utility to the original scope of the 
project. Do you agree?
    Mr. Goldin. The basic measurement that Triana was going to 
make was measurement of the heat balance on the sunlit portion 
of the Earth, which is a very important measurement. That is a 
good measurement, it remains a good measurement, but when we 
went out for scientific peer review, there were a number of 
very specific suggestions made that would enhance the value of 
the mission.
    Mr. Sununu. Well, with all due respect, that wasn't the 
description of the project that was originally presented by the 
agency. The original description of the project was visual, it 
was sunlit, a full disk view, a 5-year operational mission, one 
new image downlinked every few minutes. There is no suggestion 
here about a heat balance. You are talking about measuring the 
reflected radiation from the Earth, correct?
    Mr. Goldin. Yes, we are.
    Mr. Sununu. I believe that package was also added as part 
of the submission to the private sector for comment?
    Mr. Goldin. I think that that measurement came from the 
basic camera that we had on it. Let me just check, because I 
would like to be correct.
    Mr. Sununu. I am reading from an agency press release.
    Mr. Goldin. You were right, I was wrong.
    Mr. Sununu. Thank you.
    The original program was a camera, was visual, it is 
described as an Earth polychromatic imaging camera, which the 
best scientific people that I put on that phrase were able to 
tell me it is color video. It is 2000 pixels, so we are going 
to get a resolution of 5 to 10 kilometers on the image. And I 
think everyone in this room can appreciate the natural beauty 
of an Earth-borne image of the Earth, but it would seem to me 
that at least as regard to this video image, the scientific 
utility of that instrument package is zero.
    Mr. Goldin. I don't know that it is zero. Let me----
    Mr. Sununu. What is the scientific utility of a 5 to 10 
kilometer resolution image of the Earth?
    Mr. Goldin. For a number of years now, we have had 
satellites at geostationary orbit. In order to piece together a 
full image of the sunlit Earth would take hours. One of the 
things that we at NASA are trying to experiment with is to see 
if we would like to have a satellite at the L-1 and L-2 points 
that would be able to peer down at Earth. Now, when they first 
put those spacecraft up in geostationary orbit, they did not go 
to the L-1 point because mirror technology would not allow them 
to get an equivalent resolution. We wanted to have a spacecraft 
that would operate at the L-1 point to give us some experience 
there, because we believe with mirror technologies that are 
developing, that we, NASA are developing, it raised the 
possibility of looking at the full sunlit disk, if you put a 
satellite at the L-2 point at the dark side of the Earth and 
you could have complete measurements of the Earth.
    Mr. Sununu. That is a description of the utility of having 
satellites at the L-1 point conducting a variety of different 
scientific experiments. That is not a justification of the 
scientific utility of a video image of the Earth taken from the 
L-1 point.
    Mr. Goldin. We are an R&D agency. We try and do the right 
thing. We went through an open scientific peer review process 
saying we would like to learn how to operate at the L-1 point. 
NASA came up with an initial concept----
    Mr. Sununu. But to be clear, you already operate at the L-1 
point. You operate the ACE at the L-1 point as you just 
described and you also operate the SOHO at the L-1 point.
    Mr. Goldin. But those are solar pointing only. We had never 
operated a spacecraft at the L-1 point that looked back at 
Earth, and there is a significant problem in trying to stitch 
together data to watch storms move across the face of the 
Earth.
    Mr. Sununu. But to the extent that we are undertaking an 
effort to give you experience for operating at the L-1 point, 
which I wouldn't disagree that an operation at the L-1 point in 
and of itself has scientific utility, but the question is 
obviously at what cost do we develop experience. We want to 
have some sort of a mission that obviously contains image 
packages that have scientific utility. I would like to at least 
finish this line of questioning.
    Do your best. If you would like to go out into the 
scientific community and have someone provide a description for 
me as to the scientific utility of the video image of the 
Earth, 2000 pixel resolution, what is the value of that? I have 
yet to see any justification of the scientific utility of that 
image.
    [The information on Triana follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Goldin. Again----

                       REFLECTED RADIATION IMAGE

    Mr. Sununu. Well, we can come back to this in the second 
round.
    You talked about the solar wind measurement. Obviously 
there is some redundancy of that mission with ACE. Finally, 
there is the reflected radiation of the Earth's disk. That is 
the third package, the one you spoke of first in trying to 
justify the scientific utility of the project.
    It wasn't part of the original package, and I recognize 
that there is no--nothing in L-1 right now that can give us the 
entire image at once, but the reflected radiation measurements 
can be put together by various lower orbiting satellites, can 
they not, in order to put together asummation of what the total 
reflectivity of the Earth is?
    Mr. Goldin. This is not my area of expertise, however--and 
we will get for the record the details of this. But to stitch 
together those measurements from different satellites has not 
given us the accuracy we believe we could get by looking at the 
whole Earth. There is a real lack of accuracy in being able to 
understand the reflected light from the Earth's atmosphere and 
what gets absorbed. This is a very important measurement, and 
we believe that this is the right way to get at that 
measurement.
    I want to come back and say that when we started this 
program, we only had a starting point. Right now, we believe we 
have a very scientifically sound approach. It is not uncommon 
to have programs like this. We go to the scientific community 
to get validation, and I believe we are on the right path and 
this program will give us the good science that we need to do 
our job.
    [The information follows:]

              Triana's Measurement of Reflected Radiation

    Triana's measurements of reflected radiation are 
complimentary to those taken from low and geostationary Earth 
orbits. Its position at L1, with the Sun directly behind it, 
allows a view of radiance angles that is advantageous in 
detecting differences in reflectance between cloudy and clear-
sky at the level of the total Earth disk (i.e., treating the 
Earth as a point source and getting a single albedo number). 
This measurement can be taken at other locations of comparable 
distances to L1. However, because L1 is the neutral gravity 
point between the Earth and Sun, it is a stable point of 
observation. Also, because it is in the Earth-Sun line of 
sight, it will get the retro-reflectance, or ``hotspot'' views 
that is not available from other locations.

    Mr. Sununu. Well----
    Mr. Walsh. Excuse me. All right. Proceed, but I would like 
to ask you to wrap up. We are going to be back again later for 
another round and this afternoon also.
    Mr. Sununu. The genesis, no pun intended, of this program 
is a bit unique. I think there is no, there is no question in 
my mind that the scientific utility of the project as was 
originally scoped out, not by NASA, but by others, was not just 
limited, but nearly zero, and certainly not worth the original 
$50 million price tag. I respect the fact that in doing what 
you need to do to provide any justification for spending $75 
million, you have been able to add a couple of small packages 
on the system that would increase its scientific utility. One 
of those systems is quite redundant. One of those systems, the 
radiometer, can be supplanted I think through other 
methodologies. You mentioned the accuracy. I appreciate, in the 
interests of science, improving our measurement accuracies. If 
you could provide me with a summary of what the improvement in 
accuracy of this observatory station compared to other low-
orbiting satellite measurements on the reflected radiation 
would be, I would appreciate that very much.
    You talk about priorities, and I have great respect for 
your ability to set priorities intelligently, and again I 
recognize how difficult your mission is. But I think that the 
priority of this project isn't just low in the pack, I think it 
is at the bottom of the pack, and I think unless the agency or 
others can provide a stronger justification for it, I think it 
is going to be very difficult to approve funding for this kind 
of a package, especially given the other needs in the agency 
that Mr. Cramer and others and the chairman have spoken about, 
and you have spoken about. I will have to leave it at that. You 
will have ample time to comment later, and as you know, I very 
much appreciate your personal comments on this and other 
topics. Thank you.
    Mr. Goldin. I will be pleased to respond in detail.
    [The information follows:]

              Triana's Measurement of Reflected Radiation

    The value of Triana's measurement of reflected radiation is 
not in improving accuracy per se, but in its addition of the 
full disk view, providing an additional data set from another 
viewing angle. Researchers studying the Earth's radiative 
energy balance have competing models that differ by about 8% in 
estimating radiation absorbed by the atmosphere. This 8% is the 
largest uncertainty among the climate-relevant impacts of solar 
radiation. Triana will provide part of the answer by enabling 
calculation of the infrared to total radiative energy ratio for 
its particular observing angle, which has never been done with 
a full disk view. The additional data set provided by Triana 
should help bring these competing camps closer together, by 
providing evidence of which of the two competing models has the 
better set of starting assumptions..

    Mr. Walsh. Thank you. That was a very good, thorough line 
of questions. I think we may want to revisit some of that later 
on.
    Mrs. Meek.

                        NASA's budgetary decline

    Mrs. Meek. Thank you, Mr. Chairman.
    Welcome, Mr. Goldin. I certainly appreciate the efficacy in 
which you and your staff have led NASA. Mr. Goldin and I, a 
colleague of mine from Florida, we have been very concerned 
about NASA's budgetary decline over the years, and we have been 
strong proponents of trying to be sure that NASA is adequately 
funded. This has not been a winning kind of position we have 
taken. He is from Florida and I am from Florida, and we have 
seen NASA grow and we have seen it now, with its budget 
declining, having to set priorities which, in many instances, 
sort of not decimate, but cut very strongly on programs which 
we know are essential. But with your being the person who 
manages that program, there are certain decisions which you 
have to make, and this committee certainly will appreciate you 
making those decisions in the light of the amount of funding 
that you get.
    He is not here today; I am sure he is going to come in 
before you leave, Mr. Goldin. He is from Pensacola, from west 
Florida, and we have watched the space program for a very long 
time, and I have been able to visit Kennedy and to see what you 
are doing there, and to see how important it is to be able to 
fund these scientific programs.

            BUSINESS INCUBATORS AND TECHNOLOGY-TYPE PROGRAMS

    My questions are some that I will constantly ask you, and 
each time I ask these questions I do get very responsive 
answers. One has to do with your business incubator and your 
technology-type programs, the transfer that you have there. You 
are not only doing kinds of programs that are purely 
scientific, but you are trying to transfer these programs so 
that we can build better businesses and certainly help the 
economy as well.
    Your motivation for business and economical growth is a 
good one, as I see it, and I wish that this committee would 
note that.
    Many of our communities throughout the country are 
searching for jobs and economic development. Would you comment 
on the priority that this kind of technology transfer is to 
NASA and in your small business development arena?
    Mr. Goldin. NASA has been very successful in its business 
incubators in transferring technology to the commercial sector. 
It is very important that as we develop these advanced 
technologies that allow us to send spacecraft to other planets 
in our solar system, to operate the Shuttle, to build a Space 
Station, to monitor the characteristics of our own Earth that 
we pass them into the commercial sector. We have found that the 
existing incubators were quite successful, and as a result of 
last year, there was an earmark placed to increase the number 
of incubators. We will now have an incubator associated with 
each of our NASA centers, and in fact in Florida there will be 
5 or 6 other incubators associated with the TDMA organization. 
Is that the right?----
    Mrs. Meek. TRDA.
    Mr. Goldin. TRDA, I am sorry, in Florida.
    We think this is a very, very good program, and has had a 
very good track record. We watch over it and we are going to 
continue to work in this area.

                           DOWNSIZING AT NASA

    Mrs. Meek. I was visited, Mr. Goldin, last year. You were 
downsizing in NASA last year. That is evident now in your 
budget. Some of the workers from Kennedy visited me, and they 
were concerned about the downsizing. And of course I talked to 
you and some Members of your staff about this.
    How is that working? What did you do relative to the 
stations like Kennedy and some of the rest?
    Mr. Goldin. Well----
    Mrs. Meek. What I am really getting after, did you really 
downsize to the point you had to fire people?
    Mr. Goldin. No. I am very proud at NASA. We have downsized 
from about 25,000 employees down to, I think we are at 18,600 
right now, without one forced departure from NASA. I think this 
is a very strong statement about how we work at NASA. With the 
help of the Congress, we have been able to have buyouts, and in 
fact, we intend to downsize, we are going to continue going 
with voluntary separations of about another 1,000 people. That 
is a huge reduction in force.
    However, we put safety as our number one priority, and it 
turns out that at Kennedy, Johnson and Marshall we were coming 
down with voluntary retirements too fast and we wanted to 
maintain the strength of the labor force, so in this year's 
budget we put in additional money so we would come down at a 
slower rate and be able to keep operations safe. We have tried 
to be very sensitive to treating employees as valued members of 
the team, and we are doing everything possible and have been 
successful so far in downsizing as a percentage among the 
largest in the government without one forced layoff, and we 
intend to continue that because the morale of our team is very 
important and these people made NASA great and we are going to 
treat them with the dignity that they deserve.

                           SHUTTLE OPERATIONS

    Mrs. Meek. In your budget request, you asked for $2.5 
billion, a little more, for shuttle operations for an 8-month 
period. Has that changed any, your forecast for that, and do 
you still envision 8 shuttle launches in the year 2000? Have 
you outlined these missions for us in your presentation?
    Mr. Goldin. I believe it is 8 missions in the fiscal year 
2000, and if you will wait a moment, I could outline those 
missions for you.
    I have STS numbers. If it is okay with you, for the record, 
what I would like to do is get you the title of those flights 
for fiscal year 2000, and our budget remains as is.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       LAUNCHING OF NEW MISSIONS

    Mrs. Meek. So, my last question, how much money are you 
committing in your budget for the launching of these new 
missions, vehicles that you use for launching? Did you estimate 
in your budget your commitment to developing these new 
launches?
    Mr. Goldin. The budget for the Shuttle contains all of the 
resources necessary for the 8 launches that we have indicated 
in the manifest. It has all of the money necessary for those 
launches.

          SCIENCE, ENGINEERING, MATHEMATICS AEROSPACE ACADEMY

    Mrs. Meek. Well, in terms of the launches, I am very much 
interested in the vehicles that you use to do that. After 
visiting Kennedy, I could see the enormity of that particular 
kind of thing, and that is why I asked that question.
    My last question has to do with the SEMAA program, which 
has been a very, very productive and responsive kind of 
program. Can you tell us something about it in terms of how it 
is working and just a little statement regarding SEMAA? That is 
the Science, Engineering and Math programs. That means a lot in 
our school systems as well as in most of our communities.
    Mr. Goldin. This is a program that was started at the NASA 
Lewis Research Center and their concern about youngsters not 
doing well in math and science, especially youngsters in the 
minority community that just haven't been doing well intesting. 
It is a very creative program that has been very, very successful. It 
was so successful that we used that model in Cleveland to start up 
programs in other areas in Ohio, and then ultimately we hope to expand 
this around the country. Given the pressures on our budget, this is one 
of the other areas that we haven't been able to fund at adequate 
levels. I feel terrible about that, but we had to make some calculated 
decisions that we will not be able to expand the SEMAA program to the 
level that we would like to.
    Mrs. Meek. Mr. Chairman, I will ask the rest of my 
questions later.
    Mr. Walsh. If you are finished, we will have another 
session this afternoon, and there may be another opportunity 
this morning, depending on how time goes. Thank you.
    Mr. Goldin. Excuse me. Mr. Chairman, could I just add one 
thing to the question Mrs. Meek asked. For the record I will 
put in all of the sites we have, the existing sites and the new 
SEMAA sites and the actual funding levels we have. But the 
concern I have is here is an opportunity to really have an 
impact, but given the stresses on the budget, we are not able 
to expand the SEMAA program to the level we desire.
    [The information follows:]

Science, Engineering, Mathematics Aerospace Academy (SEMAA) Replication

    The success of the SEMAA program at Cuyahoga Community 
College in Cleveland has led to its nation-wide replication:

    Detroit, MI--Wayne County Community College
    Dayton, OH--Sinclair Community College
    Washington DC--DC Public Schools and the University of the 
District of Columbia
    Atlanta, GA--Fernbank Science Center
    Chicago, IL--Chicago Public Schools
    Jamaica, NY--York College
    Additional sites to be added in Baltimore, MD; Greenville, 
NC; St. Louis, MO.
    During the past budget year NASA was given $10M for the 
replication of 7 new sites and the continuation of the existing 
sites.

    Mrs. Meek. Thank you.
    Mr. Walsh. Thank you. Mrs. Northup.

               NEW AGREEMENTS--SPACE STATION COOPERATION

    Mrs. Northup. Thank you.
    Welcome, Mr. Goldin. I am quite in awe of what is 
accomplished in the space program and I struggle to keep up 
with an understanding of it, but I am eager to see your work 
progress and progress efficiently and quickly, and I believe it 
is essential to our country's purpose.
    I do want to ask you, though, several questions, and I will 
start right out with asking you whether there will be any joint 
announcements about Space Station cooperation, new agreements, 
working together with Mr. Primakov's visit next week.
    Mr. Goldin. I don't know. Mr. Primakov is scheduled to meet 
with Mr. Gore I believe from tonight through Thursday, and I 
will be attending those meetings on Wednesday, and I will hope 
that what will come out of those meetings is a rededication of 
the Russian government to pay their bills to the Russian Space 
Agency so we can continue this program. I don't anticipate any 
major new agreements coming out of that relative to the Space 
Station. We are very close to getting that service module up on 
orbit, and if we could get the appropriate funding from the 
Russian government to the Russian Space Agency, we will be 
there.

                        COOPERATION WITH RUSSIA

    Mrs. Northup. I want to return to funding. I think the 
cooperation with Russia and our relationship with Russia, I am 
concerned in a number of areas. First of all, I am interested 
in sort of what the autonomy is between your--between NASA and 
the Russian space organization in terms of, let me say of other 
departments in this country, other cabinets that have an 
interest in our relationship with Russia.
    Mr. Goldin. I feel that we have complete freedom within the 
laws of the land, within appropriate laws, or appropriate 
agreements that the Russians are supposed to operate within to 
do the things that we need to do. Clearly, there are issues of 
foreign policy that when they come up we refer them to other 
agencies of government, but given the actual building of the 
Space Station, the relationship we have with the Russian Space 
Agency, I believe we have appropriate freedom to do what is 
right.
    Mrs. Northup. Well, you know, sort of going in either 
direction too far would be a concern, but let me start right 
out by saying if you believe tomorrow that cost-wise it made no 
sense for us to continue with Russia as a partner, could you 
decide to end that?
    Mr. Goldin. We have a set of agreements with Russia, and 
clearly, these agreements are agreements at a government-to-
government level. But certainly, if I felt that there was 
something improper, I would make the appropriate 
recommendations.
    Mrs. Northup. Well, I am not necessarily talking about 
improper. I mean the fact is they haven't lived up to their 
agreements in terms of being able to pay and deliver. I mean 
originally we expected that we would save $2 billion by your 
own testimony, I believe, by cooperating with the Russians. Now 
we know it is actually going to cost us. There will be no 
savings. It is actually going to cost us $1 billion more to 
cooperate with the Russians. So based on that, based on the 
concerns you are hearing from this committee, if you decided 
that the best way to get that up and get it operating would be 
to say to the Russians, I am sorry, we can't afford your 
participation, and end it, could you do that?
    Mr. Goldin. Well, before I answer the hypothetical 
question, I would like to correct something--I would like to 
just provide some background on where we are. If we were to 
separate from the Russians right now and not take delivery of 
the service module on orbit, which we want and which we need, 
it could delay the program by years and cost yet billions of 
dollars additional. I don't see the upside of separating at the 
present time from the Russians. I don't know how to put a value 
on the Russians having the backup Proton, Soyuz and Progress 
vehicles, which we think is essential and which was the 
foundation of why we entered in with them.

                    DEVELOPMENT OF PROPULSION MODULE

    Mrs. Northup. But in fact, in your budget, don't you now 
have a new project to replace our dependence on them? Aren't we 
actually going to appropriate $780 million to actually replace 
any dependence on those products?
    Mr. Goldin. We will be developing a propulsion modulewhich 
will allow us to operate in case the Russians don't launch Progress 
vehicles, but the fact that they have the Proton rocket and the Soyuz 
vehicle is very essential to us in case a problem happens with the 
Shuttle. If you will, it is a very, very important insurance policy.

                          Crew Return Vehicle

    Mrs. Northup. Well, does that mean that your crew return 
vehicle that you are asking for appropriations for isn't 
actually going to go forward unless the Soyuz becomes not an 
option for us, or are we going to go on and develop that?
    Mr. Goldin. We are going to develop the crew return 
vehicle, but it will not be available I believe until 2003, 
which is 4 years from now. So if we were to just say to the 
Russians we are not interested in working with you, we wouldn't 
have access to the Soyuz vehicle for that period of time. It 
just takes time to bring these things up and have them ready. 
So I don't think at the present time it would be in our 
interests to say, let's walk away. We are very close to getting 
that service module on orbit.

                      Intergovernmental Agreements

    Mrs. Northup. Let me return to my original question. Is 
that strictly NASA's decision, or is that part of our foreign 
policy?
    Mr. Goldin. NASA has agreements with the Russians, but some 
of these agreements are coordinated at higher levels of 
government, and certainly we would coordinate with the other 
levels of government before we would take such a decision.
    Mrs. Northup. Let me get more--I guess I am having a hard 
time sort of understanding the answer here, so let me ask 
specific questions.
    Do you hear from, for example, Secretary Albright about 
what she wants to have happen? Do you hear from other 
departments regularly about our continued relationship with 
Russia based on these projects?
    When you decide that we are going to have to actually spend 
more, when there is in here additional appropriations for us to 
reimburse Russia for services that we didn't anticipate 
earlier, or to actually pay for receiving things, do you 
consult with the people that formulate our foreign policy?
    Mr. Goldin. Well, 15 nations signed up to an 
intergovernmental agreement. It was not signed at my level, it 
was signed I believe at the Secretary of State level. These 
governments are committed to building the International Space 
Station. So it is not for NASA to take unilateral action.
    Mrs. Northup. But did that include the price and the sort 
of technology that would be transferred vis-a-vis the money 
that would be transferred?
    Mr. Goldin. I don't believe costs were part of that, but I 
might point out that we have had issues with our other 
partners, it is just that we have had problems with the 
Russians. This is a U.S.-led space station and it is a very 
complicated set of issues.
    Mrs. Northup. Well, Mr. Goldin, though, if I could say, 
throughout all of this I mean Russia is sort of the repeated 
issue in cost overruns. I mean there may be--I mean it 
dominates the testimony and the budget justifications. There 
may be issues, there are always issues.
    Mr. Goldin. That is correct. The single biggest set of 
issues and problems we have are with the Russian government's 
inability to pay the Russian Space Agency to do the things that 
it promised in the intergovernmental agreement. That is a 
statement of fact.
    Mrs. Northup. So let me now sort of turn away from just the 
financial issues and who is the controlling authority in this 
country about how long and how fragile or cemented this 
relationship is with Russia. I would say, though, let me just 
finish by saying that it seems to me there are a considerable 
number of expenses that are being proposed this time that are 
sort of based on the ``if Russia doesn't continue'' theory, as 
though we are at least entertaining within our government the 
idea that Russia wouldn't continue to be a partner forever.
    Mr. Goldin. I don't believe that that is the basis for 
those investments we are making. We want to do the prudent and 
the right thing, and given the economic condition in Russia, we 
are concerned that over the long run, there may be times when 
the Russians may not have enough money to do the things they 
said they would do, and given the level of investment we are 
making, we think it is the prudent thing to have this equipment 
on orbit. If the Russians do have the ability to meet their 
obligations, we still would like to have this equipment on 
orbit, because it gives us an additional level of insurance and 
redundancy. We do think that this is the right thing and making 
these investments is clearly a recommendation that NASA has 
made. We were not asked by any other level of government to do 
it, but the President and the OMB supported us when we made the 
recommendations to buy these insurance policies. But it does 
not presuppose that we think Russia is going to leave. It is 
there as an insurance policy.

                       Russia's Defense Industry

    Mrs. Northup. Let me turn now to Russia's relationships in 
its own country with other scientific powers; specifically, its 
defense industry. I feel like these agreements were signed when 
there was an increasing reassurance in this country that the 
United States and Russia's best interests were on a parallel 
path. We hope they continue in that direction.
    My question is, how much relationship in exchange of 
information, use of technological information is exchanged, do 
you believe, between the Russia space program and other 
scientists, particularly those involved in Russia's defense 
systems?
    Mr. Goldin. We at NASA have a specific set of rules that we 
put in place on technology transfer to assure protection of 
U.S. technologies that are crucial to us not to go to Russia. I 
don't know how to comment on what discussions the Russian Space 
Agency has with their own defense establishment. I can only say 
that in the United States, we, NASA, are very supportive of our 
own defense establishment, and when they come to us and we have 
technologies that they could use, we do make those technologies 
available to them.
    Mrs. Northup. But do you assume that happens in Russia too?
    Mr. Goldin. I just don't know.
    Mrs. Northup. What is your assumption? Is your assumption 
that it does? I mean you almost sound as like of course that is 
what happens every day.
    Mr. Goldin. I always am hesitant to comment on something 
that I don't have specific knowledge on.

                     United States Defense Industry

    Mrs. Northup. How often does technology that you have help 
our Department of Defense in their creation ormaintenance of 
our weapons systems?
    Mr. Goldin. Well, I could say that NASA is playing a major 
role in the development of reusable launch systems that will be 
of great benefit to the defense of this Nation. NASA plays a 
very great role in aeronautics technologies. We do an enormous 
amount of testing for the Defense Department, and today, even 
though our aeronautics budget is low, we are assuming more and 
more of a responsibility for the long-range aero propulsion 
technologies that the Defense Department is going to rely on. 
So we don't develop weapons, I want to be clear about that, but 
we do act as a good partner to the defense of our Nation.
    Mr. Hobson. If the gentlewoman will yield, I am going to 
ask some questions about that, because there are some positive 
things happening between Wright Patterson Air Force Base, NASA, 
and Glenn in Ohio.
    Mrs. Northup. With all due respect, my concern is entirely 
different, and that is that as we pour billions of dollars into 
Russian space programs that we, in a sense, are indirectly 
aiding their defense programs, and that if their defense--if 
they are a very unstable country, is anybody, is anybody at any 
level sort of judging whether indirectly we are fueling their 
defense industry?
    Mr. Goldin. Let me make one thing clear. We have a very 
limited number of dollars going to Russia. Last year I think we 
purchased $60 million of goods and services, and this year we 
are going to anticipate buying $100 million. We are not buying 
billions of dollars from the Russians.
    Mrs. Northup. Don't you have a projection for next year's 
budget?
    Mr. Goldin. Zero.
    Mrs. Northup. Zero, okay.
    Mr. Goldin. It is zero thereon. So there is a perception 
that we are funding the Russian space program with billions of 
dollars. We are not. We are expecting the Russian government to 
fund the Russian Space Agency at the levels that they committed 
to so that the Russian Space Agency can meet their obligations 
to us. Every time the Russian Space Agency has been funded at 
appropriate levels, they do really good work. So our issue is 
that the Russian government makes commitments in its 
appropriations process in its Duma, and the money does not flow 
to the Russian Space Agency, which causes our problems.
    I also want to say that we certainly rely on the foreign 
policy establishment of the United States to protect critical 
assets of the United States and, clearly, we consult with them 
to assure that we are living within the laws of the land and 
doing the appropriate thing, and we do participate in those 
meetings.
    Mr. Walsh. Mrs. Northup, could I just interrupt for just a 
second. We have been pretty liberal with the time, giving 
everybody a chance to really explore their questions, but we 
are up over 15 minutes now, so if you could----
    Mrs. Northup. That is fine.
    Mr. Walsh. Do you want to wrap up?
    Mrs. Northup. Well, I would just say, you know, what you 
have said to me, that there is a lot of information developed 
by NASA that is of great interest and use to our Department of 
Defense. These are the same scientists that are working with 
Russia, and I am concerned about who is sort of the controlling 
authority in sharing that information, that technology, and/or, 
even if there is none that crosses international grounds, what 
sort of work goes on in Russia based on our encouraging of a 
space program and a partnership that then becomes of use to 
their Defense Department.
    Mr. Goldin. We, NASA, abide by the rules of export control 
and technology transfer. There are very specific rules that we 
live under.
    John Shumacher, who is the Associate Administrator for 
External Relations, carries out those rules. We check and we 
validate. So we live within our laws to not transfer technology 
to Russia.
    The thing that I am just reluctant to comment on, Russia is 
a sovereign nation. If they have a space agency that does 
something equivalent to what we, NASA, do in our own country, I 
just don't know how to comment on that, except to say we are 
working with them in civil space. We believe we are doing the 
appropriate thing in our relationship, and we rely upon the 
foreign policy and intelligence establishment of this Nation to 
tell us whether we are on the right track.
    Mrs. Northup. Thank you, Mr. Chairman.
    Mr. Walsh. Mr. Price.

           Increasing Cost of the International Space Station

    Mr. Price. Thank you, Mr. Chairman.
    Mr. Goldin, welcome back to the subcommittee. Glad to see 
you again.
    You may notice, if you have checked the transcript from 
last year, that there is a certain repetitiveness in the 
questions that I am going to ask. That is not because I or my 
staff lack imagination, however, it is because we don't seem to 
have made a lot of progress on some of the matters that we did 
discuss, and so I hope your answers will be somewhat different 
this year. We do, I think, need to revisit some of these 
matters, which mainly have to do with academic and research 
programs at NASA.
    Many colleagues, myself included, have expressed concerns 
about the increasing costs of the International Space Station. 
I am a supporter of the station, but I am becoming increasingly 
aware that increased station costs and pressures on the NASA 
budget overall are cutting away at other NASA programs, 
academic, education and research programs in particular.

                        Cut in Academic Programs

    The academic programs at NASA are slated for a $17.5 
million decrease from $71.6 million to $54.1 million in your 
budget request with a large portion of this decrease coming in 
educational technology. In particular, the space grant college 
and fellowship program would be cut in the President's budget 
by nearly 30 percent, from $19 million to $13.5 million.
    Now, last year I asked whether NASA supported the programs 
funded in the academic program, and if so, why was there such a 
dramatic cut proposed when you came here last year? Was it 
because of Space Station, or was there some other factor? The 
answer I received was actually that NASA had made a mistake in 
that request, in the space grant request, and that it would be 
fixed in the fiscal year 2000 operating plan. Yet, the requests 
we are dealing with this year, it looks to me like almost the 
identical request that supposedly was mistaken last year.
    So what is going on? I do think we need an explanation. And 
if it was a mistake last year, why is the mistake being 
repeated in requesting this kind of draconian cut in these 
academic programs?
    Mr. Goldin. First, let me ask Mr. Peterson, who is the NASA 
comptroller, to answer the question on the mistake oflast year, 
because he is the one who pointed it out to me and I will add the 
broader context to your question.
    Mr. Peterson. Sir, last year we made a mistake in our final 
allocations of the Fiscal Year 1999 budget proposal to you, and 
indeed, of course it did get fixed in the 1999 operating plan. 
A significant amount of money was added by this committee and 
others in the Congress to our academic programs. When we came 
to the fiscal year 2000 budget, when we had to resolve the 
final numbers with the Office of Management and Budget, given 
the direction that we were under, we were not able to fund the 
academic programs at the level that we had intended to fund 
them in 2000. When we have come forward to brief the 
Congressional committee staff, we have acknowledged our extreme 
regret that that was the case and have asked for some latitude 
in the fiscal year 2000 operating plan to resolve that issue.
    Mr. Goldin. I would like to add a broader context. It is 
not the International Space Station because we did not touch 
the education budget for that. But what I would like to point 
out is something that happens year after year, and I know the 
Members are very interested in the NASA space program, but when 
you take a sum of the administration actions and the 
congressional actions, I showed this before. This is a very 
important chart to note. The NASA budget has come down about $1 
billion over the last 6 years. It came down about $100 million 
this year, and I know the tremendous interest people have.
    When I read about the Federal budget, if you take a look at 
the broad range of the Federal budget, the goal is to keep the 
agencies on track with inflation. Not only do we not get 
correction for inflation, but our budget is coming down $1 
billion, $100 million in the last year. This is something that 
is very, very difficult to do, but being committed to a 
balanced budget, I feel everyone ought to kick in.
    Another misnomer is the Space Station is using up the 
research funds, and I have a curve here which shows the total 
human space flight program measured over time, and in 1999, it 
crossed over, and this bottom line is the Space Station plus 
the Space Shuttle, and this is our science budget. The science 
budget is going up each and every year while the sum of the 
Shuttle and the Space Station, costs go down.
    Now, I know that that is not solace for this education 
budget, which I agree is very, very important. The dilemma that 
we have is given this situation with the NASA budget, and I 
don't know that there are very many other agencies of the 
Federal Government that have this situation, given this, we 
don't know what to do. Education I believe is very important, 
and what we did is we maintained the education funding at the 
level we had before the additional money was put in for the 
earmarks. We didn't know what else to do, and I am very, very 
frustrated. If given just a level budget, we would be able to 
deal with it. But each year the budget comes down, and I don't 
know where to go to do the right thing. It is a very, very high 
level of frustration to me, and your being concerned, I will 
agree with you again this year. I just don't know what to do.

                 GUIDELINE LEVELS FOR ACADEMIC PROGRAMS

    Mr. Price. Well, as you said, the fix last year involved a 
substantial increment of funding added by this committee and by 
the Congress. Is that possibly what is going on here with the 
concentration of the cuts in these accounts? Are you cutting 
items you think Congress will increase? I mean what explains 
the disproportionate cut here? I am just struggling to 
understand. I understand the overall budgetary pressures. I 
understand you are eager not to have a trade-off with the Space 
Station perceived, although the chart that you referred to, 
while a long-term trend is as you describe it, the year 2000 
trend is for a steeper increase in the Space Station account 
than in space science generally, and you anticipate apparently 
a reversal of that trend.
    Mr. Peterson. Sir, if I may respond, the guidance that we 
operate under in formulating this budget was to adhere to the 
previous guideline levels. The previous guideline levels for 
the academic programs for fiscal year 2000 is exactly the 
amount we requested. We were allowed to go above guideline only 
for two areas. One was the Space Station and the other was for 
some technology investments. The Office of Management and 
Budget held all of the programs to their previous guideline 
levels. So it would have been an increase to that guideline--
actually that we proposed and did not receive in the education 
programs area.
    Mr. Price. How does that----
    Mr. Peterson. We did not cut it, although relative to the 
1999 President's requested level, it is certainly a cut in 
funding from the FR 99 enacted level. However, it is absolutely 
consistent with the budget plan that the administration put 
forward last year for fiscal year 1999.
    Mr. Price. Well, that is true, because it was a cut last 
year, which was described in this hearing as actually a 
mistake, and Congress put the funding back in. So is that what 
you mean, that the request is consistent with last year's 
request?
    Mr. Peterson. Yes. The fiscal year 2000 request is the same 
as our plan was in the fiscal year 1999 run-out. We were not 
allowed an increase. That is unlike the case in the fiscal year 
1999 where a mistake was made by us in the final allocation of 
the agency, internal distributions. In this case, we did not 
have that luxury.
    Mr. Price. These guidelines you are describing take no 
account of last year's congressional action.
    Mr. Peterson. That is correct, sir.
    Mr. Price. And basically revert to last year's 
administration request.
    Mr. Peterson. That is correct, sir.

                MOVING PROGRAMS FROM PHASE II TO PHASE I

    Mr. Price. Was the fiscal year 1998 budget used in the same 
way that the fiscal year 1999 budget is projected to be used? 
Here is the reason I ask that question and what I am 
specifically interested in.
    The potential for elevating some of these Phase II programs 
to Phase I, which of course does imply a higher funding level 
and a more advanced status for these projects. As I understand 
it, about $1 million of the congressional add-on went to what 
you call designated competition, which is designed to elevate 
some of these Phase II projects to Phase I status. If I am 
wrong in that assumption, please tell me. But that is my 
understanding, and that is almost $1 million in your current 
fiscal year 1999 budget breakdown. So that is one question. 
What kind of success have you had in moving the Phase II 
projects to Phase I, and then what if we made a similar 
addition this year for fiscal year 2000? Could we anticipate 
that--and that of course would just simply be flat funding from 
what you have this year. Could we anticipate that that would 
enable you to transfer, or transform Phase IIprograms into 
Phase I?
    Mr. Peterson. Yes, sir. We are, in fact, doing so in fiscal 
year 1999, moving programs from Phase II to Phase I.
    Mr. Price. What number of programs?
    Mr. Peterson. The selections are for four new programs that 
are going to move up to that level.
    Mr. Price. So that is in the designated competition item, 
that is the way that is being spent.
    Mr. Peterson. Yes, sir. And we are unable to maintain the 
same funding level for all of the consortia in the fiscal year 
2000 budget without increased funds. So what we would be doing 
is taking sort of an across-the-board reduction. Instead of 
eliminating designated, what we would be doing is giving 
everyone a little bit less money.
    Mr. Price. So you would anticipate, even with your--even 
with the reduced fiscal year 2000 budget request, you would 
still be able to move four additional programs into Phase I?
    Mr. Peterson. Sir, I think I better defer on that. I will 
give you an answer for the record. I don't know that given the 
funding level which is clearly inadequate, whether I know 
whether that moving 4 additional programs up is in the cards.
    Mr. Price. Well, let me ask you to give us three kinds of 
information for the record. Number one, an account of the 
programs that are being moved up this year; number two, the 
programs that--the number of programs you would expect to be 
able to supplement, upgrade with your current budget request; 
and then thirdly, the number that could receive that treatment 
with an increase similar to what the Congress voted last year.
    Mr. Peterson. Yes, sir.
    [The information follows:]

                      Phase II to Phase I Programs

    An account of the programs that are being moved up this 
year:
    There are 21 consortia that are eligible for the upgrade to 
Phase I. We received 11 proposals of which 4 will be selected 
in August, 1999.
    The number of programs that you would expect to supplement/
upgrade with your current budget request:
    In FY 1999, we will have upgraded 4 consortia; with the 
current FY 2000 request, there are no plans to upgrade 
additional consortia.
    The number that could receive the Phase I upgrade with an 
increase similar to what the Congress voted last year:
    None. The FY 1999 funding of 19.1 M allowed for 4 upgrades. 
At that level in FY 2000, we would be able to maintain all of 
our consortia at their current (and newly upgraded levels). To 
upgrade additional states beyond the 4, we would need a SG 
budget greater than 19.1.
    Just a reminder, the 19.1M in FY 1998 and FY 1999 allowed 
for a 25% increase in the base award for all consortia, in 
addition to the opportunity to upgrade 4 consortia to 
designated status.

                      HIGH-SPEED RESEARCH ACCOUNT

    Mr. Price. All right.
    Another area with a large decrease is the aeronautic 
research and technology account. Now, as I understand it, the 
majority of this decrease is due to the closing out of the 
high-speed research account.
    Can you explain that closing out, and particularly, what 
kind of point we are at with respect to transferring this to 
the private sector and enabling private industry to produce a 
high speed civil transport?
    Mr. Goldin. This was a very difficult termination, 
especially since I was involved in its initiation. The dilemma 
we had is we have one major airframe company in America, 
Boeing, and we had a contract with Boeing to develop the 
technology that could lead to a high-speed civil transport. 
Boeing had been very supportive of this approach and really was 
committed to the future, with this very critical technology, 
which is probably about 20 years off, because it is a very 
long-lead, very highly intensive R&D activity. With the 
downturn in the Asian market, and the financial conditions that 
the Boeing Company had found itself in, it was a cooperative 
agreement, so it was a Space Act agreement, so they had to 
provide in-kind goods and services which was creating a 
significant financial problem for them.
    So the Boeing Company made a corporate decision that they 
would not be able to work with us on this since this was so far 
out, and they had incredible pressures in the near term. So 
independent of any other action, we decided without a 
commercial partner that would actually be there to do the 
development and building and selling of these planes, it would 
be inappropriate for NASA to continue with this on our own.
    It is a very, very significant decision because the High 
Speed Civil Transport (HSCT) program is delivering unbelievable 
technologies that we feel are breakthroughs. We had the goal of 
developing a plane that would carry 300 people 5,000 miles at 
knot 2.4. That would allow the plane to have such a high 
productivity, to go back and forth across the ocean twice in 1 
day, and it looked like it really was going to have a huge 
impact on the future. But because we didn't have a partner, 
there was no fee involved in this contract that we had, but 
Boeing wasn't there to do it. So we are going to have to 
regroup and figure out what we should do now.
    But we also ought to take a good hard look at this. This is 
a very loud signal that we are receiving about the ability of 
American corporations to look 20 years out in the future. I am 
very concerned about the signal we are receiving.
    Another area of concern that I have, if you take a look at 
the jet engines that used to be sold in America just a 
generation ago, 75 percent were sold to the Department of 
Defense, and 25 percent were sold to commercial airliners. 
Today it is reversed. It is 75 percent commercial and 25 
percent to Department of Defense.
    And if we take a look at where this technology is going, if 
America does not lead the world in the commercial aeronautics 
sector, it will have a significant impact on our defense. So we 
at NASA are regrouping. We are very concerned about this 
signal, and just yesterday I met with the leadership of the 
airline industry, the airports and the manufacturers, and we 
are openly discussing the implication of what happened on this 
High Speed Civil Transport.
    I am very concerned. I don't have the answers yet, but I do 
intend to talk to the highest levels of government and 
industry, and I would like to talk to this committee about the 
subject because there are other things that this government is 
not doing that are essential for the commercial vitality that 
no one corporation could afford to fund, and this is something 
that we really need to explore together.
    Mr. Price. So the reduced request that we are referring to 
is a negative rather than a positive signal in terms of 
aprospect for a timely commercialization?
    Mr. Goldin. Yes. I think we have lost about 10 years on 
this possibility.

              Commercializaton Plan for the Space Station

    Mr. Price. I know that my time has expired, Mr. Chairman. I 
would like to pursue, or maybe you can submit for the record 
some kind of--you have a commercialization plan for the Space 
Station dated November 16, 1998. I assume that helps explain 
some of the declining costs that you are projecting there. 
Maybe it doesn't, but I wonder what kind of lessons, positive 
and negative, this high-speed privatization experience may hold 
for your projected plans for the Space Station.
    Mr. Walsh. Maybe you could provide that in a thoughtful 
written response.
    Mr. Goldin. I would be honored to do that.
    [The information follows:]

                       High Speed Civil Transport

    The privatization experience associated with High Speed 
Civil Transports (HSCT) is very different from the 
commercialization of space, particularly the privatization of 
the Space Station. The United States airline industry has been 
privatized for years, employs millions of Americans, is the 
leader of the world-wide aviation industry and produces the 
largest balance of trade surplus in our country's exports. 
NASA's High Speed Research (HSR) program was focused on 
developing technology to enable HSCT to reduce travel time to 
the Far East and Europe by 50% within 25 years. The HSR program 
is being terminated at the end of FY99 because of change in 
support by industry partners brought about by emerging business 
trends. Nevertheless, the NASA program made significant 
progress toward the original targets developed at the beginning 
of the program. We are much closer today to a commercially 
viable supersonic transport, making major advancements in noise 
reduction, emissions reduction, weight reduction, and 
affordability. And while progress will slow significantly at 
this point, NASA will continue to support high-speed research 
through our basic research programs.
    NASA's efforts on the Space Station are in an arena in 
which there is currently no industry. Whereas HSCT involves 
introducing a new airplane into the mature airline industry the 
Space Station is NASA's attempt to enable the commercialization 
of an infant industry. In high-speed travel, industry would 
recoup its investment through passenger ticket sales, transport 
revenues, etc. At present the Space Station is being built 
solely because the Federal government is paying for its 
construction and will continue to pay for its operations and 
maintenance. The Space Station is not a for-profit venture.

    Mr. Goldin. I am not as concerned about the Space Station 
as the broad technology base of this Nation. I am very 
concerned about the stress on American corporations on near-
term performance and their not being able to work on a 
cooperative basis on real high-risk, high-payoff and high 
technology. I have grave concerns about this area.
    Mr. Walsh. We will be glad to share that with our other 
colleagues who have decisions to make about research funding.
    Mr. Hobson.

              Competitiveness in the Aeronautics Industry

    Mr. Hobson. I was going to ask the question that Mr. Price 
asked because I think that is going to have a negative effect 
on the competitiveness in the aeronautics industry in this 
country. At some point I would like you to comment about that, 
the effect on our competitiveness as you look out into the 
future.
    Mr. Goldin. I was in the private sector for 25 years, and 
up until 10 years ago when we restructured in America, 
corporations were able to fund things with a much longer time 
horizon on it. As we went through restructuring in the 1980s, 
that time horizon began getting shorter and shorter. We talk 
about research and development, but what we are really talking 
about in industry is product development and applied research, 
not the long-term, high-risk research.
    I think there is great concern. I know Mr. Curt Weldon, who 
is very interested in this subject, is going to hold a 
conference in Philadelphia on it because of his concern about 
the long-term R&D investment, and I think this is a subject 
that is bigger than NASA, and we need to take a look at the 
relationships between the government and industry in this area 
of long-term, high-risk research. And if you take a look at the 
budgets in these areas for the long-term, high-risk research, 
the budgets are coming down, and most of the R&D money is going 
into near-term product development and applications.
    During the cold war we had the strength of the defense 
budget, which was robust in this area, and the NASA budget 
funding this long-term, high-risk research, but today it is 
very stressful, and I wish I could give you obvious answers, 
but the alarm bells went off. And we don't have any ill feeling 
toward Boeing. In fact, Boeing did what it had to do, but the 
alarm bells went off, and our concern about long-term, high-
risk partnership with industry needs to be reexplored.
    Mr. Hobson. I worry about the European industry taking over 
the competitiveness. Do you think that they have the capability 
of stepping up?
    Mr. Goldin. Not yet, but I will tell you the European 
research in aeronautics is high-quality research. It is really 
good. I am very impressed, especially by some of the efforts 
that I have seen in Germany and France and England. They do 
really good work in aeronautics. The Japanese are getting 
stronger also. And when the Russian economy returns, you know, 
even if it is 10 years from now, the Russians are very good in 
this area, too.
    So this is an area that I think needs some time, and in the 
President's budget we wanted to make sure that at least we had 
a core effort in aeropropulsion, so we are proposing an ultra 
efficient engine program.

                        NASA's Management Skills

    Mr. Hobson. That is my next question.
    Before I get to that, I want to say to you that I think 
sometimes it is a little disheartening to come before these 
committees. You are one of the few agencies in this entire 
government that has taken to heed the change in government. 
Most people come in here, and they are getting their budgets 
floated higher, bigger, but you are the one person that I think 
has brought outside management skills to an agency that we all 
expect perfection from. A lot of people were concerned about 
NASA's spending. You grappled with it, and you have continued 
to struggle with it, and I guess our job is to continue to poke 
at you to do even better. But I do want to commend you because 
of all of the agencies, and I sit on a number of different 
appropriations committees, you are the only one outside of the 
Department of Defense that has taken a real whack along the 
way.

                  Evolvable Expendable Launch Vehicles

    Before I get into the UEET, can you tell a little bit about 
the Lockheed Martin engine deal with the Russians?
    Mr. Goldin. I know that we purchased time on the Russian 
TU-144. Is that the program that you are talking about? Is it 
the EELV?
    Mr. Hobson. Yes.
    Mr. Goldin. Lockheed Martin Corporation made a decision. 
They took a look at all of the engines that exist in the world 
to power that vehicle, and they decided that the RD-180 engine 
built by the Russians was the most cost-effective, efficient 
engine in the world, and they are going to build their 
evolvable expendable launch vehicle based upon that technology, 
and Pratt Whitney is working with this Russian company so that 
technology will get transferred to the U.S. so we have a backup 
capability to build that engine in the U.S.
    But the fact of the matter is, that is an incredible 
engine. The Russians are very good rocket engineers. I know 
that there was some concern of American technology going to 
Russia. Here is an example where we are buying Russian 
technology and bringing it to this country, and there is a lot 
of concern in Russia because Pratt Whitney will get transfer of 
that technology.

                             Docking System

    Mr. Hobson. What about docking; didn't you buy a docking 
system from the Russians?
    Mr. Goldin. Yes. We bought it for $25 million, and for us 
to develop it would have cost a quarter of a billion.
    Mr. Hobson. I think there is a tendency to think that 
technology exchange is a one-way street. These are two examples 
of the U.S. working with Russia to develop technology more 
efficiently and at a lower cost, which is mutually beneficial.

                Ultra Efficient Engine Technology (UEET)

    I would like to turn to a question on the UEET program. As 
I understand it that this program was developed to respond to 
concerns about the growing amount of air traffic, new safety 
requirements and more stringent engine noise and emission 
standards. Given that NASA eliminated two other aeronautics 
programs in the fiscal year 2000, does the new UEET program 
fully develop the technology base needed to regain America's 
role in aeronautics? And you indicate that the success of this 
program is contingent partnerships being able to transfer 
resulting technology. What are these partnerships, and how is 
NASA going to enhance them?
    Mr. Goldin. Aeropropulsion is crucial to the future of 
aviation. In fact, I was with the GE people yesterday, and we 
showed them what we are doing in aeronautics. They said, do you 
understand what NASA has done over the last 10 or 20 years in 
developing aeropropulsion technologies? It has provided the 
basis for a lot of engines that GE is now selling competitively 
worldwide.
    It is the intention of this ultra efficient engine 
technology program to make leap-frog changes in how we develop 
jet engines. At the present time jet engines are limited in 
their efficiency because they operate at 1,700 degrees, the 
melting point of alloys that we have. We are now looking at 
materials that operate at 2,000 and 3,000 and 4,000 degrees. If 
we can build combustion chambers based on ceramic matrix 
materials that can operate at those temperatures, the fuel 
consumption would go way down. From the military standpoint, 
you get longer range from your planes. From a commercial 
standpoint, fuel is a very big expense; and with less fuel, you 
have less emissions. So we think this is crucial to future 
directions.
    At the same time other nations are developing low-noise 
technologies which are allowing them to cut the noise levels at 
airports so they can go sell their planes and their engines. 
Remember what I said, 75 percent of the engines now sold are to 
the commercial supplier, so it is crucial as a Nation that we 
develop the most efficient, quietest, cleanest engine, because 
if we don't do that, our people will not be keeping up with the 
other corporations. And I have to say that the Europeans are 
very, very good in this field. Rolls Royce builds the engines, 
and they do a very good job.

             Collaboration Between NASA and Other Agencies

    Mr. Hobson. Recently, I saw some reengined KC-135s at 
Mildenhall AFB. I asked to see the engine shop, but the engines 
are so reliable, there was no need to have that in-theater. It 
is unbelievable the reliability that is in these engines today.
    This is a question about NASA and DOD which you and I have 
discussed before. Over the years I have pushed for cooperation 
and collaboration between NASA and other Federal agencies, and 
I think this is vital to ensure that taxpayers get the most 
bang for their buck without unnecessary duplication between the 
various agencies. You don't build weapons, I understand that, 
but in your budget you recognize NASA's supportive role in 
helping DOD to maintain our defense capabilities, specifically 
in the field of aeronautics.
    Can you elaborate how this propulsion technology is going 
to assist DOD in its military aircraft? One effort which I 
mentioned in the past is the issue of aviation safety, and I 
notice in this year's budget you are introducing a new aviation 
safety program. Is this coordinated with DOD's current aviation 
safety initiative, and can you also comment on other 
coordinated efforts between NASA and DOD?
    Mr. Goldin. We are working with DOD. They have a program 
where they are making evolutionary upgrades to the jet engines 
to enhance the performance of the military planes. We would 
like to be able to take some of these new technologies and 
support them with revolutionary technology leaps because this 
is the area of NASA's strength, and the limitations on the 
defense budget don't give them the latitude to look at these 
revolutionary changes, and General Armstrong, who heads up the 
aerospace activity, is in the process of working with the DOD 
in this area.
    With regards to safety, we have added an activity called 
synthetic vision, which will allow pilots to see on a flat 
panel display day/night, all weather. It would get us to the 
point where we can improve the safety of operations inzero/zero 
conditions. We feel this is essential for situational awareness of 
pilots. Whether you are piloting a military plane or a commercial 
plane, this is something that is essential technology, and clearly we 
are going to make this technology available to the DOD.
    Last year you worked me over pretty good on some of the 
test facilities, and rightfully so. And we have been 
aggressively working with the DOD on doing propulsion testing. 
That was one of the areas of your concern, and we are really 
converging, and I believe both the Air Force and NASA will have 
better test programs as a result of this convergence.
    Clearly the area of real intense cooperation is the Air 
Force is now actually putting money into NASA reusable launch 
vehicle programs, and I think that is a real testament to the 
support we have been giving them, and the deputy program 
manager of one of our new reusable launch vehicle programs is 
an Air Force officer. So we are now literally sending NASA 
employees over to the DOD to ensure this tech transfer, and 
they are sending employees over to NASA, and I said we are 
proud to have people walk around NASA in military uniforms.

                             AGING AIRCRAFT

    Mr. Hobson. And you are also going to talk to DOD about the 
aging craft?
    Mr. Goldin. Yes. I am going to be meeting with Secretary 
Peters, and we are going to talk about the aging aircraft 
studies that you recommended to us.

                      NASA AUDITING RUSSIAN FUNDS

    Mr. Walsh. That completes our first round. We are scheduled 
to go to 12:30 and come back. We will try to keep it to 5 or 7 
or 8 minutes, and everybody gets another crack. If not, we will 
just pick up where we left off. I am going to try to make these 
questions brief.
    We have talked a lot about the U.S. money that has gone to 
Russia for the space program. Has NASA audited those funds, and 
what control mechanism does NASA have to ensure that the 
questions on the use of these funds can be answered?
    Mr. Goldin. First let me say that we negotiate firm fixed-
price contracts with the Russians with very specific, very 
descriptive milestones that they have to meet, and we give them 
a distributed set of payments based upon completion of 
milestones. We have people in their plants in Russia. And 
relative to the audit, I would like Mal to answer that part of 
the question.
    Mr. Peterson. The simplest form of an audit is to not pay 
until you take delivery of any goods or services, and what we 
do is we negotiate a value to us of a particular good or 
service that the Russians are going to furnish, and then we do 
not pay them until we have determined that they have satisfied 
that obligation. So that is our first and foremost line of 
defense.
    The other is that we maintain a constant awareness of what 
is going on within their plants with our resident officials 
there so we can track progress and make sure if there are any 
concerns that the funding is flowing to the suppliers. Where 
there has been an issue with the supplier not delivering 
hardware because of not getting paid, we actually go to that 
supplier's plant and make sure that the funding is provided to 
the supplier so that the hardware can get delivered.

                             SOYUZ PURCHASE

    Mr. Walsh. Let me latch onto that question. Your 
explanation of the best audit is one in which you pay after 
services have been rendered and a contract has been satisfied. 
The Soyuz purchase that we are talking about this year, the 
$100 million purchase of Soyuz and other additional equipment, 
my understanding is that will not be ready for 2 years, so how 
can we--maybe this is not your approach on this specific case, 
but if the best audit is one that you pay for services rendered 
and the contract is completed, satisfied, why are we spending 
$100 million on a Soyuz that won't be completed for 2 years?
    Mr. Peterson. The hardware takes 2 years to build, that is 
certainly true. What you are doing is actually making progress 
payments. As you go through each step of the build process, you 
are making your payments based on milestone accomplishments, so 
you are tying it to actual progress.
    Now, it turns out that for the Russians, in order to place 
the orders for that hardware, they have to go out and provide 
their suppliers with the money in order to build--their 
suppliers who work sort of on a don't trust, actually give us 
the money first, and then we will build it for you. So we go in 
and look at that delivery, make sure that the hardware has been 
ordered, that the work is in progress and then monitor the 
progress along the way.
    Mr. Walsh. Last year we appropriated at least 60 million to 
the Russian Space Administration, I believe is the title. What 
did we get for that?
    Mr. Goldin. We got a commitment for 4,000 on-orbit hours 
from Russian astronauts. They were initially going to be doing 
research for their activities. That in essence doubles the 
amount of astronaut time that we have for the early phases for 
the Space Station and allows us to do much more research.
    Mr. Walsh. That is future, so we are not really getting a 
services rendered contract in that case?
    Mr. Goldin. That is correct. And the other thing that we 
obtained was storage space. We need additional storage space 
for some of the critical subsystems that we want to put on 
orbit in case we have problems, and we got, I think, 3 cubic 
meters of storage space committed on the service module once it 
is up there. So those are the two exchanges that we got, but 
they are in the future.
    Mr. Walsh. That is a contractual agreement, is it not, for 
that space and that time?
    Mr. Goldin. Yes.
    Mr. Walsh. We have a signed document?
    Mr. Peterson. The purpose for the $60 million was not--we 
secured a benefit to us for that. The other benefit, of course, 
was to have their service module schedule be maintained or 
actually put back on track. So we tied the milestones for the 
payment of that $60 million to specific items that the Russians 
had to put into place on that service module.
    Mr. Walsh. That service module is still in doubt; is it 
not?
    Mr. Goldin. We are getting much more confidence in it 
because we think that they are going to be ready to pack it up 
for shipment in about 2 weeks. If it does arrive down at 
Baikonur in the first or second week of May, we will be ready 
for a launch in the fall. But we have a written agreement for 
these hours and the storage space.
    Mr. Walsh. On Mir you said if--I think Mr. Sununu asked or 
maybe it was Ms. Northup, I can't remember, if Mir stays up, is 
that a show of bad faith to the United States in this 
arrangement that we have? You suggested if they can keep it up 
there with private investors and service it without sacrificing 
servicing the space lab, that would be a goodthing, but you 
don't really believe that can happen, do you?
    Mr. Goldin. I would say the probability of that happening 
is 1 in 10.
    Mr. Walsh. That is a good short answer.
    Mr. Goldin. I am trying, sir.

             RELATIONSHIPS WITH STATE AND LOCAL GOVERNMENTS

    Mr. Walsh. That was very helpful. It puts things in 
proportion.
    NASA has obviously lots of spin-off benefits which we have 
been able to sell to the American public. One of those is, I 
believe, the technology in satellite imagery and the uses of 
that technology for local governments--local and State 
governments for land use planning and agriculture and flood 
control and so on.
    How would you characterize NASA's relationship with State 
and local governments?
    Mr. Goldin. I think it is good, but could be much better.
    Mr. Walsh. How could we improve it?
    Mr. Goldin. I think we need to reach out to local 
governments and State governments with the intensity that we 
have worked with the commercial sector. I don't think we are 
doing a good job. I haven't thought about it until now, but I 
would like to give you a thoughtful answer.
    Ghassem, would you like to say something?
    Dr. Asrar. We are in the process of establishing a dialogue 
with all of the Governors of all of the States, and we are 
trying to identify what their needs are, and this would be the 
basis for formation of a solicitation later this year or early 
next year for expanding our relationships with the State and 
local governments.
    Mr. Goldin. But still I am not satisfied. I know that we 
are doing a lot better with industry than we are with State and 
local governments. I will commit to you a thoughtful response 
to the record integrating what Ghassem said.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Walsh. I want to be realistic here. Your budget is 
going down. You have major challenges ahead of you. You have 
huge commitments, time commitments, space and energy and human 
commitments. But I would like to get your thoughts on how we 
can improve that situation down the road.
    Mr. Mollohan.

                INTELLIGENT SYNTHESIS ENVIRONMENT (ISE)

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Goldin, NASA has proposed a new Intelligent Systems 
program in the 2000 budget, but it doesn't seem to be located 
in any one place, and you have a Technology Investments 
pamphlet that contains an Intelligent Synthesis Environment 
program, which includes a 5-year projection for $180 million. I 
don't think that you speak to it in your written submission, at 
least I can't find it, but I understand that the new Technology 
Investments program includes $20 million in fiscal year 2000 
for this Intelligent Synthesis Environment program. Could you 
tell the subcommittee a little about this new program? It is 
difficult to piece it together from your budget submission. 
What are the pieces to the initiative, and could you tell us a 
little bit about it?
    Mr. Goldin. You find it in the aeronautics research and 
technology base under information technology. That is where you 
find it in the budget. But let me talk briefly about it.
    One of the lessons that we learned from the International 
Space Station and a number of other programs is that we don't 
have adequate design tools, and, by the way, we have talked to 
many corporations on the subject. We would like to be able to 
simulate a spacecraft before we build one piece of hardware. We 
would like to be able to have globally distributed teams of 
scientists and engineers that would go into virtual space and 
spend their time on the creative process, not spending their 
time on all of the routine processes required with present 
information systems.
    We think this is the single most important set of tools we 
can develop that will get us to a cycle time goal of a few 
years from the 5 years we are at right now. We also believe 
this is a critical tool for American industry also. And in 
developing these specific tools, we are going to be building 
test beds. We have $180 million planned over the next 5 years. 
We will begin to take the best tools available and train our 
people and integrate it into our basic design processes and 
each year make progress on improved approaches.
    Right now when we commit to a major program, we commit--
when we have perhaps 10 or 20 percent detailed design 
knowledge, we commit 90 percent of the costs. In the long term, 
and I think this is a decadal goal, we would like to be able to 
have 70 or 80 percent design knowledge when we commit 90 
percent of the cost. This is the fundamental problem of 
engineering today. This is not just true in government 
programs, these are true in commercial programs. These are the 
core technologies that we want to go into.
    Mr. Mollohan. What centers are going to have the lead in 
this program?
    Mr. Goldin. Intelligent Synthesis Environments will be led 
by the NASA Langley Center in Virginia, and the intelligent 
systems that form the intellectual basis for these tools will 
be led by the NASA Ames Center in Sunnyvale.
    Mr. Mollohan. What is the requested funding level for the 
fiscal year 2000?
    Mr. Peterson. You are asking about for the ISE, sir?
    Mr. Mollohan. It is hard for us to break it out, but yes, 
if you can give us that, and then if there are any other pieces 
in the budget request that relate to this program?
    Mr. Peterson. Well, the specific request for the ISE is 
augmentation of $20 million, and that, of course, is located in 
that information technology element of the R&T base in 
aeronautics.
    The other parts of the intelligent systems world are in our 
core technology spending that is located in the Space Science 
budget.
    Then there are a significant number of corollary 
activities, the high-performance computing, which is 
distributed not only within the Aeronautics budget as a 
separate program, but is also found in both Earth and Space 
sciences. There are a number of related activities that are 
secondary contributing factors. I would be glad to provide you 
with a breakdown of how we distribute our spending both 
specific on this case and the related.
    Mr. Mollohan. Would you, please?
    Mr. Goldin. Yes, we will do that.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                          OMB REQUEST FOR ISE

    Mr. Mollohan. What was your request to the OMB for the ISE 
initiative?
    Mr. Peterson. It was for $60 million. We received $20 
million of that.
    Mr. Mollohan. But still your 5-year projection was 180 
million? That wasn't affected by OMB?
    Mr. Peterson. Our 5-year projection to OMB was 300----
    Mr. Walsh. I just realized I made a mistake. This was 
scheduled to end at noon. I have a 12:00 appointment that I am 
going to be late for. Would you fellows mind if we came back at 
1:30? Do you want to finish up, Alan? I wasn't watching my 
schedule as closely as perhaps I should, and I apologize.
    Mr. Mollohan. That is fine.
    Mr. Walsh. Why don't we break here then. Again, I apologize 
for the confusion, and we will reassemble at 1:30. Thank you.

                      AEROSPACE TECHNOLOGY PROGRAM

    Mr. Walsh. The subcommittee hearing will come to order.
    We were ending up the morning session with Mr. Mollohan 
asking questions and we will go back to him. Welcome back, Mr. 
Goldin, and all of your staff.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Goldin, I'd like to follow up on some of the questions 
exploring the cuts in science and aeronautics particularly 
targeted at the aerospace technology program. I was listening 
to your questions with interest and thought I heard you saying 
that perhaps you were in the process of reevaluating these 
proposed cuts because of some perhaps push-back you had 
possibly gotten from industry or concerns about the effects of 
those cuts on America's commercial aerospace and commercial 
airline industry.
    Did I hear you perhaps laying a foundation for a 
reconsideration of the cuts proposed?
    Mr. Goldin. I wasn't at that point yet. We are taking a 
look at our overall strategy with how we deal with the 
aeronautical sector of the American business community. We had 
been working mainly with the air frame manufacturers and the 
engine manufacturers and the first and second tier parts 
suppliers.
    As part of that reevaluation, we are now exploring working 
more directly with the people who use them rather than those 
who build them to be sure that we have the right set of 
requirements.
    Mr. Mollohan. Is that reevaluation in response to the 
reaction that you received from this industry to your proposed 
cuts to the aerospace technology programs?
    Mr. Goldin. No, it was in reaction to the dilemma that 
Boeing found itself in.
    Mr. Mollohan. That is why you proposed the cuts?
    Mr. Goldin. Right.
    Mr. Mollohan. Are your recommendations for a $330 million 
reduction in that area a result of Boeing's problems, or an 
effort to meet a budget target and this was just a place that 
you felt came out at the lowest priority?
    Mr. Goldin. The first cause of the problem we had was the 
dilemma that Boeing found itself in in not being able to solve 
its near term problems and fund the long term solution. That is 
real. Once we saw that was the issue and we cancelled the 
program, clearly we had a need for additional monies in the 
International Space Station and that is where we put the money. 
There was the initial cause and we utilized it.
    We then recognized that we couldn't completely take all of 
the money we had out of the aeronautics program so we put back 
into the program, in working with the OMB, $50 million for the 
ultra efficient engine program and----
    Mr. Mollohan. And the safety program?
    Mr. Goldin [continuing]. $10 million a year for the safety 
program and some money in for the revolutionary concepts 
activity, and then ISE. So we took some out and put some back 
in recognizing that we couldn't take the full amount out.

                      INCREASING AEROSPACE FUNDING

    Mr. Mollohan. What I am trying to ask is: are you, in the 
answers to these questions, telegraphing an interest in coming 
back to the committee and working with the committee as the 
year progresses, and perhaps increasing the funding above your 
budget request in the aerospace line item?
    Mr. Goldin. I believe that is the case. We are concerned 
that we might be below critical funding levels, yes. You have 
perceived that correctly.
    Mr. Mollohan. If you do come back, how would your request 
be different and how would you recommend that the dollars be 
spent differently than your current budget submission 
recommends?
    Mr. Goldin. Right now we believe we have core money in 
there to keep the NASA workforce intact at the Glenn Center and 
at Langley. We are concerned that the engine companies who have 
been putting in a considerable amount of their own money and 
have that money to expend--we may not have enough money to cost 
share with them. That is one of the areas we are very concerned 
about. United Technologies, Pratt Whitney, and GE, are having 
discussions with our people about the potential investment that 
they would like to make in this ultra efficient engine. They 
are talking about putting in their own money. We would like to 
have the matching funds so we do the right thing, but we 
haven't had those complete discussions yet.
    And we are a little bit concerned that we may have cut too 
closely on some of the noise activities that we had been 
working on. Those are two areas that come to mind right now.
    Mr. Mollohan. I don't think I am going to ask the question 
of you think the money is going to come from right now. I am 
going to wait until the process unfolds a little bit.
    Mr. Goldin. Thank you.

                     RUSSIA'S PERFORMANCE FAILURES

    Mr. Mollohan. If I may ask this question, Mr. Chairman, in 
closing up this round, there were a lot of questions in the 
first round about the quality of Russian performance with 
regard to their role in the Space Station.
    In the face of all of the disappointments associated with 
their performance failures--coming through with the funding 
commitments and timeliness of delivering on their various 
commitments--when all of that is said and done and you get to 
the bottom line, how do you evaluate the importance of the 
Russian participation in the Space Station from this point 
forward to the success of the program, specifically, and the 
other issues that surround the involvement, the national 
security issues, the policy issues that surround the value of 
the Russian participation in the Space Station?
    Mr. Goldin. I would like to----
    Mr. Mollohan. A bottom line answer.
    Mr. Goldin. Bottom line, if I had it to do over again and 
the President asked me to ask the Russians, in knowing what I 
know today, I would still do it. It is absolutely clear that 
the Russians knew so much more than we did about having 
astronauts in space for decades. We had flown the Shuttle and 
we have only had experiences of a couple of weeks at a time. 
The experience that the Russians had in training, operations, 
logistics, building hardware, the experience they had in 
dealing with the contingencies and emergencies, the experience 
with protecting lives and safety, has been an invaluable 
experience and I don't believe we could have built the Space 
Station.
    In this morning's session we talked about we didn't save 
the money that we thought that we would save, but I will 
contend that had we not worked with the Russians, had we not 
done Shuttle-Mir, had the Russians not been gracious enough to 
tell us about extended duration space flight, I don't know that 
we could have built the Space Station on schedule, and the 
potential for overrun and management problems would have been 
enormous. There is no doubt in my mind from a technical 
standpoint, I am not even getting into the politics, from a 
technical standpoint we needed the Russians.
    In modern America it is difficult because many of us have 
not recovered from the relationship we had during the Cold War, 
but the bottom line, it was clearly the right thing to do.
    I would like to add two other things to that. First, we 
negotiated with the Russians that they would take down their 
independent national space station which they operated without 
any other country for 20 years. They have signed up to that. 
The head of the Russian Space Agency signed that protocol. That 
in and of itself is a statement from the Russian side that they 
trust America. Keep in mind this is a U.S. led Space Station 
and it is not a sovereign national program, so they have made a 
step in our direction and I think that is a step of a true 
partnership.
    Now there are a couple of issues and the road is a little 
bumpy, but in the end I think they are going to deorbit that 
Space Station. That is a tremendous trust that they are putting 
in America.
    I come back to the issue of backup launch. We as a Nation 
mourned, as we had to keep the Shuttle down for 2 years after 
Challenger. If the Shuttle goes down, we will not be able to 
keep that Space Station up there and it will be essential to 
have these backup Russian resources. If we were to sever 
relationships with the Russians now, and we will not have the 3 
or 4 years necessary to build the backup propulsion module and 
the crew return vehicle, I don't think that we could keep the 
Space Station that we have up in the sky right now. So bottom 
line, if we had it to do over again, I would say do it over 
again.
    The one issue that I would have done differently and I 
accept responsibility and accountability for it, I would have 
pushed harder, even though the budget was tight, to start some 
of these contingency activities 3-4 years ago. That is one 
issue that NASA and Dan Goldin should have done better.
    Mr. Mollohan. Thank you.
    Mr. Walsh. Mr. Knollenberg.

                        POLITICIZING OF SCIENCE

    Mr. Knollenberg. Thank you, Mr. Chairman, and welcome, Mr. 
Goldin. It is good to see you and everybody here.
    One of my biggest concerns I think is not NASA, but it is 
the politicizing of science, and I want to talk to you a little 
bit about how that may or may not be a problem with NASA. I 
want to get your read on some of the things that bother me. 
There are times when Members of Congress, perhaps agencies use 
science to--use in fact manipulation of science to fulfill a 
political agenda, and I believe that we should rely upon sound 
science and I trust that NASA does. I am appreciative of the 
record that NASA has in terms of producing what appears to me 
to be sound independent science.
    But let me then proceed into an area of climate change that 
has to do with some of the work that NASA does. I think there 
is about 1.6 billion that is devoted to Earth science. I don't 
know how that is sorted out, but I am just reading from the 
page here. There was a bump of some--about 47 million in that 
category, but let me get into some of the questions.
    Mr. Goldin. Sure.
    Mr. Knollenberg. Maybe just briefly and I don't need much 
on this, but what does NASA do to assure us that there is 
objectivity and independence in coming to their conclusions 
with respect to the agency's science?
    Mr. Goldin. First, we are strong adherents of the peer 
review process. It is very, very important to us. In fact, if 
you look in the Earth science area, NASA's mission is to supply 
basic science without injecting policy into the output of the 
science, especially in the area of global climate change. We 
fund researchers for the peer review process that are both 
sides of the issue. As an example, there is Dr. Hansen at the 
Goddard Institute in New York who is feeling that there is 
significant climate change induced by human behavior. And then 
there is Spencer and Christy at NASA Marshall down in 
Huntsville, Alabama. We fund them both. We do not want to 
prejudge the results of what is going to come out, but we want 
that debate to take place in the open scientific arena.
    One other example, we have some researchers at NASA Johnson 
who believe that they found samples of microbial life in a 
martian rock. I encouraged them to publish their results and I 
also encouraged other researchers to compete for pieces of that 
rock so they could do their own research and have an open 
debate. Today there are scientific meetings that are set up to 
deal with do we believe there is fossilized microbial life in 
that rock or not. The key thing for NASA to do is to fund the 
science and not to get into policy; and we try very, very hard 
to do that.
    Mr. Knollenberg. As you well know, this issue is being 
discussed here in Congress, not as much as I would like but it 
will be soon, and I want to take science out of politics as 
best we can and make sure that the scientists, the real experts 
do it. And I am glad to hear that you have point/counterpoint 
already in your agency. My question is: The additional money 
this year that goes into Earth science, and I am estimating, 47 
million, that is an increase. I know in many cases it is down. 
Your various categories of expenditures are down. That one went 
up. Where is the 47 million being spent and how much of that 
might be spent in the area of analysis of greenhouse gases and 
their impact on the Earth's climate?
    Dr. Asrar. I will explain that.
    Mr. Knollenberg. I want to know what the justification is.
    Dr. Asrar. Most of the added funds are going towards our 
applications and commercial remote sensing activities. Plus the 
analysis of data from those missions that have about 10 
missions to launch this year, and we thought that we have to 
add more money into the analysis of data resulting from these 
missions to fully realize their potential.
    Mr. Knollenberg. When do you expect to be done?
    Dr. Asrar. With what aspect?
    Mr. Knollenberg. You mention that you have a series of 
missions?
    Dr. Asrar. Ten of them are being launched this year and 26 
total over the next 5 years. In anticipation of this great 
volume of data resulting from these missions, we wanted to make 
sure that there is a robust and healthy basis forutilizing the 
data from these missions. Plus as I stated, we are putting an added 
emphasis on applications of the data resulting from these missions 
toward solving practical societal problems.
    Mr. Knollenberg. I would assume that the work that you do, 
the analysis that you do, and specifically the money that goes 
into these missions, is that in any way being done elsewhere? 
Is this a totally compartmentalized effort?
    Dr. Asrar. The scientific objectives that we pursue are the 
national scientific priorities identified through the National 
Research Council.
    Mr. Knollenberg. What about the U.S. Global Change Research 
Program?
    Dr. Asrar. We do work through that forum in some of the 
scientific objectives that we pursue.
    Mr. Knollenberg. Would you say that your work, your 
scrutiny and observation has more to do with outer space? When 
I say outer space, I guess I am talking about the area, the 
arena in which you find yourself that you are in, I guess that 
is outer space?
    Dr. Asrar. Yes. Our unique contribution is providing that 
unique vantage point from space. That is what we bring to the 
table in the form of remote sensing of the entire Earth system, 
for example oceanography or looking at the vegetation over the 
surface of the Earth or the atmosphere itself, both the 
chemistry and physics of the atmosphere.

                COMMUNICATE FINDINGS WITH OTHER AGENCIES

    Mr. Knollenberg. How do you communicate your findings with 
other agencies?
    Dr. Asrar. Through coordinating mechanisms such as U.S. 
Global Change Research Program, which is multiagency. We also 
have agency-to-agency arrangements. For example, we do work 
very closely with FEMA, Federal Emergency Management Agency, in 
extending the benefit of what we do to actual practical 
applications that FEMA requires.
    Mr. Knollenberg. What about EPA?
    Dr. Asrar. EPA we only have some limited work on the aspect 
of land cover, land use change in the U.S., which is very 
limited. That pertains to the global and carbon cycle and land 
cover, land use change.

                       RESEARCHING CLIMATE CHANGE

    Mr. Knollenberg. I am looking for your comment here because 
it appears to me that NASA has a unique role when it comes to 
researching climate change, a kind of reserve for that upper 
atmosphere or beyond the atmosphere. And there is a statement 
that I wanted to relate to you that appears in one of the 
science publications which has to do with the same folks, the 
U.S. Global Change Research Program. It has to do with why 
climate models can't keep up, and you may have seen this. It 
seems that the thrust of this article or criticism is that the 
U.S. models can't keep up. We have to in some cases--American 
analysts have to rely on other countries to get the kind of 
detailed data that they need.
    Is that statement correct that appears in this publication?
    Dr. Asrar. Partially the statement is correct. Within the 
U.S. we still continue to provide the scientific leadership 
towards developing these models and understanding the 
fundamental chemistry, physics and biology that analyze the 
phenomenon of the Earth and its climate. What we haven't done a 
good job of is integrating the outcome of that research into a 
series of operational models that we can use by operational 
agencies such as National Oceanic and Atmospheric 
Administration. That is one aspect that is missing.
    The second aspect that is missing, our ability in the area 
of high end computing capabilities has eroded in the past few 
years so that we cannot improve--we are not keeping up with the 
developments across the globe in terms of being able to have 
higher computing capability to improve the resolution of these 
models so that they continue to capture smaller events at local 
to regional level so we can extend the benefit of the global 
science to the local.
    Mr. Knollenberg. How much of NASA's studies is based on 
absolute evidence?
    Dr. Asrar. Most of what we do is based on the actual 
observations, but to bring out the full benefit of those 
observations, we couple them with the modeling effort. So it is 
really observations and modeling, but the unique contribution 
of NASA at the 80 percent plus or close to 90 percent is in the 
form of observations, the actual evidence. We do have some 
modeling data, but it is very minimal compared to some other 
agencies.

                      EFFECTS OF GREENHOUSE GASES

    Mr. Knollenberg. Let me come back, do current satellites 
have the capacity, the capability, to measure the effect of 
greenhouse gases in the clouds? I don't mean outer space but 
back on Earth. Do you have anything to relate to that?
    Dr. Asrar. Only the upper atmosphere, the stratospheric 
component, the issues associated with ozone and the chemical 
constituencies that contribute to the ozone depletion.
    Coming down to the troposphere where we live, we currently 
do not have any capabilities in space that allows us to measure 
those gases directly. However, we do have some space-based 
capabilities to assess the strength of the pools or the sinks 
for these gases, primarily the ocean, which takes up the 
CO<INF>2</INF> and the forests in the research mode, not in the 
operational mode.
    Mr. Knollenberg. How long has NASA been measuring the 
globe's temperature as it relates to climate change from the 
satellites?
    Dr. Asrar. Basically NASA helped NOAA to have that 
capability in place since we have put in place the weather 
system. So we currently do not have any research satellites. We 
rely heavily on the operational monitoring satellites for that 
purpose. That is part of the reason for this controversy 
because those satellites were not intended to provide highly 
accurate precise measurements, and we are extending their use 
to some objectives that they were not intended for.
    But the earliest we can have such a well-calibrated mission 
launch would be the end of next year, that measures the 
temperature of the atmosphere precisely to about to 1 degree 
Kelvin in slabs of 1 kilometer.
    Mr. Knollenberg. Are there new technologies being utilized?
    Dr. Asrar. That is the role that NASA plays, to shed some 
light on the scientific issues that are being discussed or 
studied at the moment.
    Mr. Knollenberg. Thank you. Mr. Chairman, thank you.
    Mr. Walsh. Mr. Cramer.

                     LIFE AND MICROGRAVITY SCIENCES

    Mr. Cramer. Mr. Goldin, I want to bring you back to life 
and microgravity science and try to extend some of the 
conversations that we were having this morning in part 1.
    There is a $15 million budget item that was to have been 
reserved for life and microgravity science that is now kind of 
lost in this discussion, or can you help me understand where it 
is and what it might be used for?
    Mr. Goldin. Yes. In fact, this committee had suggested that 
NASA take a look at a standby mission in case we had delays in 
the Space Station building, and they put $15 million in the 
budget to get such a mission started. We took a look at it and 
we found that a standby mission in and of itself didn't make 
sense in that we could only get about 1,300 pounds of equipment 
up at a relatively high expense where typically we take 7,500 
to 8,000 pounds of equipment up. There was a factor of 5 ratio 
in the real utility of that mission.
    We said maybe we should consider a dedicated mission, and 
we do believe that a dedicated mission does make sense, but the 
$15 million only gets us part of the way there because to just 
pay for the rental of this equipment, which we would rent from 
the SpaceHab Company, would require an additional 15 to 25 
million to get the double module that they have, and then we 
need another $84 million in expendables to have the Shuttle 
mission. So we are off by about $110 million. So that is the 
only reason that we are not at the present time scheduling such 
a mission.
    We are going to try to move along the path that if the 
money became available we could have such a mission, and we are 
looking at a time frame of early 2002 as a place that the 
manifest would allow such a mission. But absent that $110 
million, we don't know how to do this dedicated mission. So we 
agree with the concept that the committee had when we started 
and just shifted it from a dedicated to a standby mission. But 
it is the absence of additional money that precludes us from 
doing it.
    Mr. Cramer. So to spend this $15 million which OMB has 
concerns about now, we would have to come up with this 
additional amount for this now different mission that you are 
talking about?
    Mr. Goldin. A dedicated mission, and we are about $110 
million away from having the capacity to do that mission.
    Mr. Cramer. Is there payload room on the October Hubble 
repair mission?
    Mr. Goldin. No.

                        NASA'S ROLE IN EDUCATION

    Mr. Cramer. I want to switch now to NASA and NASA's role in 
education.
    There is a lot of debate going on about what we can do to 
strengthen elementary and middle school education over science 
and math issues, and even senior high school education. Is NASA 
doing enough to reach elementary and middle school students, 
our next generation of engineers and scientists, and do you 
have any programs on the books that would address this issue?
    Mr. Goldin. We have a number of programs; and are we doing 
enough? No. Could we do more? Yes. Is this an area that I 
personally am frustrated with? Absolutely.
    We have a way of reaching children with the space program 
that no other organization in the country could use. We have a 
number of programs where we train teachers, I think we touch 
some 20,000 teachers a year. We do everything from giving 
scholarships where they will come to our facilities for a few 
weeks to a whole summer to learn how to do a better job of 
teaching. We touch 3 million children a year through a whole 
range of programs that we have, and they are very effective.
    The dilemma is the continued compression on the budget, and 
this is an area where we would love to do more. We think that 
we can have a very major impact. And when I get a chance to 
talk to teachers--I spend a lot of time going and talking to 
schools, and I see the direct impacts we have, especially on 
disadvantaged children which have a problem relating to math 
and science, and on young girls that don't always get that 
extra push to look at math and science. And this is an area 
where we would love to do more, but we are limited by the 
capacity.
    Mr. Cramer. Is there a consolidated program out of 
headquarters that is carried on through all of the centers?
    Mr. Goldin. Each of our centers works on it. I can give you 
a few facts. We have 151 programs. They are spread across our 
10 centers, so there is a broad range of activity.
    Mr. Cramer. That you would call educational activities?
    Mr. Goldin. Yes.
    Mr. Cramer. Which partner you with the private sector?
    Mr. Goldin. The private sector sponsors a van that we take 
around the country, and in this van teachers can upload CD-ROMs 
and get videos and lesson plans. It will pull up to a school 
and teachers use it for a day or two, and then it is on to the 
next city. A number of the aerospace companies sponsor that van 
and cost share it with NASA.
    Mr. Cramer. And I would assume in my community with my NASA 
center there at Marshall there are such programs that are in my 
district.
    Mr. Goldin. Yes.
    Mr. Cramer. I would like more information about that 
because in my community we have a unique opportunity with the 
presence of private sector companies like InnoGraph and others 
to partner with schools, adopt individual schools. There is a 
new science center that is going up there, and we may be able 
to broaden our impact with limited dollars on teachers and 
consequently young people.
    Mr. Goldin. American students are doing terrible in testing 
when compared to students in other countries. Math aptitude is 
very low, especially among eighth graders, and we are going to 
have a society in the next few decades that are going to be 
totally dependent on technology, and if we want to lead the 
world in the 21st century, this is what we need to do.
    I will point out that the NASA budget even in education is 
not at the expectations we would like to have. Even though the 
NASA budget came down over the last 7 years, the education 
budget has gone up. We have disproportionately increased it, 
but we can't keep on doing that given the fact that the budget 
keeps coming down.
    Mr. Cramer. The President's fiscal year 2000 budget 
included increases in research and development funding for DOE, 
the National Science Foundation and EPA, several other 
departments and agencies, but NASA's R&D budget will actually 
suffer a 4 percent decrease. Do you believe that NASA is being 
adequately funded in the area of research and development?
    Mr. Goldin. NASA is better.
    Mr. Cramer. In what sense?
    Mr. Goldin. I guess the President is confident that we will 
do more with less.
    Mr. Cramer. Do you think that you can?
    Mr. Goldin. We would not object to an increase in our 
budget. We might even smile a little.

                          TOTAL COST BUDGETING

    Mr. Cramer. Talk to me a little bit about your full cost 
practices that were initiated in 1995, the multiyear initiative 
to introduce full costs practices into NASA.Where are we with 
that now?
    Mr. Goldin. We would like NASA to operate just like a 
private business. When I arrived at NASA, our people were 
working real hard but they didn't know what their overhead 
costs were, what their general expenses were, and it would 
always be cheaper to do it in-house than to have a contractor 
outside the agency.
    So we wanted to better manage the costs, and you need to 
understand the bases for those costs, not just the direct 
charges but the indirect charges. One of the reasons that 
American industry has been so productive in the last decade, 
they have gone after the overhead costs. Total cost management 
says that we will be able to break out the NASA costs 
completely, understanding all of the overhead that goes along 
with it, so that our center directors can do a much better job 
in how they manage the taxpayers' resources.
    We are planning on doing total cost budgeting for the 
fiscal year 2001 process and by fiscal year 2002 we hope to be 
implementing total cost management.
    Mr. Cramer. Agencywide?
    Mr. Goldin. Agencywide. Let me just double-check with our 
CFO. Arnold?
    Mr. Holz. That is correct.
    Mr. Goldin. I believe we will be one of the first agencies 
in government to undertake this. When we do this, I ask the 
Congress to have a certain level of understanding because you 
are going to have a full level of detail from NASA, and it will 
be very easy to go in and say, gee whiz, look at all of this 
waste. We are going to have sunshine on it and we are going to 
want to work with you on it.
    One of the dilemmas that we have in implementing total cost 
management is if we have too many accounts in our management 
and appropriations and not have the flexibility to move between 
accounts, we may not be able to implement total cost 
management.
    For example, even though NASA Marshall doesn't play a major 
role in some of the space science areas, a lot of the space 
science projects come to NASA Marshall for specific support. 
Now if under total cost management we can't move people back 
and forth between centers and utilize the facilities at NASA 
Marshall, it will put a chilling effect on the ability of other 
centers to use NASA Marshall in the space science area.
    So one of the areas that we have really made a plea for is 
to not put up too many barriers in the terms of appropriations 
accounts. We have the operating plan that allows the Congress 
to have total oversight in how we move the money around. If we 
have too much inflexibility, we may not be able to give you and 
ourselves the opportunity to understand how to get our overhead 
costs down even more.
    Mr. Cramer. It has to be agencywide or it is a 
contradiction or there is going to be some domino that is going 
to stop.
    Mr. Goldin. By the way, my employees will be very unhappy 
with me because I told them to trust everybody and be very 
open. And if the first reaction to total cost budgeting, 
management and accounting is to come in and start punishing 
people for laying things down to the table openly like they do 
in industry, it is not going to work. In industry you get 
rewarded for identification of overhead problems.
    Mr. Cramer. We in the Alabama congressional delegation have 
held your feet to the fire with what has been going on or has 
not been going on at the Marshall Space Flight Center, and you 
have done a terrific job of making sure that we settle things 
down there, that we understood the future that will exist for 
the Marshall Space Flight Center. Art is doing a terrific job. 
The NASA community seems to be responding to him very, very 
well. The reorganization that has occurred there, the way that 
the employees have realigned that I was apprehensive about at 
first because change is tough for a lot of people, specifically 
where they are required to work and who they are required to 
work with, but that has gone very, very well. So I think we as 
one space center representing the space family that we are so 
proud of appreciate what you have done there.
    Thank you very much, Mr. Chairman.
    Mr. Goldin. May I just note that Art Stephenson is who you 
are referring to. He left the private sector at a tremendous 
financial disadvantage because he is a patriot.
    Mr. Cramer. We were anxious about him because he was from 
Texas, and so we were a little anxious. I personally was not, 
but I knew the community would be anxious. They would interpret 
here come the Johnson folks again. But Art Stephenson is doing 
a terrific job. Thank you.
    Thank you, Mr. Chairman.

                BUDGETARY CONSTRAINTS--SCIENCE MISSIONS

    Mr. Walsh. I would like to stay with this science mission 
issue for a minute, if I may.
    You are saying that it is not going to happen because of 
budgetary constraints; is that correct?
    Mr. Goldin. I'm sorry?
    Mr. Walsh. The idea of putting on an additional science 
mission because of budgetary constraints?
    Mr. Goldin. The dilemma is we don't have the additional 15 
to $25 million required to fund the activity through Space Hab 
and the additional $84 million to pay for the expendable parts 
necessary to have this launch on the Shuttle. Those are our two 
problems.

                       HUBBLE AND TRIANA MISSIONS

    Mr. Walsh. Did you opt to do the Hubble and the Triana 
mission in terms of priorities, putting them above this?
    Mr. Goldin. We felt that in the case of the research 
mission, we had about 60 percent of the research covered 
because we added extra lockers to the Shuttle. This happened 
after the request that you had made of us to do more research 
and to the express racks that we were going to put on the Space 
Station.
    In the case of Hubble we thought that was a higher priority 
because the Hubble is one of the most productive scientific 
instruments we have and that we wouldn't have the threat of 
losing the spacecraft, but we were afraid that we would lose a 
significant flow of science and so we prioritized that above 
it.
    In the case of Triana, we believe that Triana is a very 
crucial mission to get us to the L-1 point, and it is a 
secondary payload so we don't have to pay for the actual launch 
itself, and that Triana we believe has the potential in the 
future of perhaps replacing five geostationary satellites, 
three of which the United States owns, two of which we depend 
on other countries, with perhaps just two satellites at the L-1 
and L-2 points. We think that it has a real potential.
    On top of that, we think that it is going to fill in some 
gaps in our scientific knowledge. There we would get zero 
without Triana.
    In the case of this scientific microgravity and lifescience 
research, we are getting 60 percent of what we did in the prior 4 
years.
    Mr. Walsh. Were you surprised when you found that in the 
budget deal last fall?
    Mr. Goldin. No.
    Mr. Walsh. The Triana mission? That was--as I understand 
it, that was included in the Omnibus Budget Reconciliation Act 
at the end of last year; is that correct?
    Mr. Goldin. I think we submitted it as an operating plan.
    Mr. Walsh. Were you surprised?
    Mr. Goldin. I was pleased.
    Mr. Walsh. And surprised?
    Mr. Goldin. No, I was pleased.

                            SHUTTLE MISSIONS

    Mr. Walsh. Will you not save money in terms of Shuttle 
missions that could be used on a science mission because of 
delays with the service module?
    Mr. Goldin. It is not that we save money. Every time a 
Shuttle goes up, the marginal cost for that flight is $84 
million. So if we don't fly a mission this year, the mission is 
still scheduled and we still have to do it. And at some point 
down the line you will have to find that $84 million if you add 
in an additional mission, and that is the dilemma that we have.
    Mr. Walsh. What if Congress encouraged you to do that 
sooner than later in the event that you get behind on these 
other missions and we try to make that whole in the next 
budget?
    Mr. Goldin. If we knew that the money would get paid back, 
I believe it would give us a lot better ability to go do such a 
mission. Let me talk to my comptroller, who is having an 
anxiety attack. He agrees with me. It is okay. He works for me 
and he agrees with me. But I would say if we can have some 
agreement with the administration and the Congress that we 
could get the money paid back in the future, I think we could 
go ahead and do such a mission.

                     HUBBLE SPACE TELESCOPE MISSION

    Mr. Walsh. Did you work that kind of a deal for the Hubble 
mission?
    Mr. Goldin. Right now my instructions for the Hubble 
mission are to go find the money and to----
    Mr. Walsh. That is the kind of deal you worked, it sounds 
like.
    Mr. Goldin. We are going to look to see what we will not do 
or cancel to do that Hubble mission. We are not being given a 
promise that we will have money in the outyears. It is a very 
tough issue, and I have asked Ed Weiler, who is the 
Administrator for the Space Science Enterprise, to start 
prioritizing his activity, and I have asked Joe Rothenberg to 
do the same thing.
    Mr. Walsh. How will you reprogram that $15 million if you 
don't spend it for that mission?
    Mr. Goldin. If we do not spend it, it is not appropriated 
and it does not belong to us. You told us to do it, and so we 
would look to your guidance and direction. No one is going to 
spend that money without your giving us direction.

                             CENTER VISITS

    Mr. Walsh. We have asked you some hard questions. Let me 
throw you a softball.
    Mr. Goldin. Thank you.
    Mr. Walsh. I am new to this chairmanship. I have been on 
the subcommittee, and I have a lot to learn about your 
business. If you were to suggest some things to see and places 
to go for myself and the subcommittee to get a better handle on 
what NASA does generally and specifically and also in relation 
to the Space Station, what would you suggest?
    Mr. Goldin. If you could afford a two-day trip, it has been 
very valuable, we have done this with other Members, I would go 
to NASA Johnson, NASA Marshall and NASA Kennedy. Those are the 
3 places where the lion's share of that work gets done. To see 
the hardware, to see the people, to get a chance in an informal 
setting to ask deep penetrating questions, I believe would be 
the best way you could come up to speed the fastest. And we 
could do it in a two-day period. If you do that with the 
committee, I would personally like to come along on such a 
trip.
    Mr. Walsh. We will see if we can work it out.
    I think Mr. Knollenberg is next.

                             Y2K COMPLIANCE

    Mr. Knollenberg. Thank you, Mr. Chairman.
    I understand that this may not have been asked this 
morning. It is the Y2K question. Has that come up?
    Mr. Goldin. It has not.
    Mr. Knollenberg. Well, I have to ask a question about it. 
As it applies, I suspect that if Y2K compliance were going to 
occur anywhere, it would probably occur in outer space first, 
perhaps. Maybe that is saying a little bit too much, but I have 
reason to believe that--every reason to hope that NASA's Y2K 
problem is not a problem. And I guess I would like some 
assurance from you as to what the status of the issue is and 
while we are talking about that, I guess you ought to reflect 
on Russia's situation, too. And whether that is in some kind of 
awkward--it might become an awkward marriage due to that 
problem.
    Mr. Goldin. First, let me say that we are on track by the 
end of March to have our modifications and tests done of our 
Y2K issues. But we are not going to stop there. We are going to 
be running a whole series of end-to-end tests in 12 different 
areas. We have already run some end-to-end tests with our 
partners in Russia. I met with the leadership of all of the 
partner agencies on the International Space Station and 
discussed with them the fact that we expect them to be Y2K 
compliant. The Russians are implementing a plan, and it looks 
like they will be on target to do that. But to check that we 
are correct, we are going to run an end-to-end test between 
Mission Control Houston and Mission Control Moscow.
    I believe we will be successful with the Russians, the 
Europeans, the Japanese and the Canadians.
    The one area that gives me concern because we don't have a 
complete contingency plan worked out is the infrastructure 
support like power and communications, not just in Russia but 
in the United States. And what we are doing at our NASA centers 
is we have a set of criteria where we are asking our people to 
guarantee if you lose power from the local power company, I 
believe they have to go for so many days, so we will be putting 
in motor generator sets, and we are looking at alternate 
communications channels in case the communications channels 
break down.
    We have a set of criteria in this area. I have asked Joe 
Rothenberg how to back up the Russians in case their 
communications or power systems go down. So we are not stopping 
at the borders, we are looking at the broad system integrations 
and doing end-to-end tests to validate it.
    Mr. Knollenberg. What about other countries?
    Mr. Goldin. We are working with all of the partners that we 
have. I sent out 3,000 letters to all of our sub tier suppliers 
telling them about our expectations on Y2K compliance. So we 
are trying to spread the net not just beyond what we control, 
but we are trying to go over the interfaces.
    Mr. Walsh. You may want to ask questions of Roberta Gross, 
who is the Inspector General, who is here today, who has done 
some audits of Y2K with the different centers.

                     RUSSIANS IN THE SPACE PROGRAM

    Mr. Knollenberg. I will be happy to do that. I want to ask 
a couple of questions. That might eat up my time, and if I have 
time, I will be more than happy to get into that.
    I want to come back to a question about a subject you and I 
had about a matter a year ago and we discussed in particular 
the Russians and the safety features of the space work, and you 
shared with me what was kind of an eye opener in that the 
Russians seem to do a better job than we might have expected 
when it comes to space. I questioned you about why don't they 
seem to have that same quality when it comes to some of the 
things on Earth, such as their whole business with the nuclear 
waste problem, et cetera, et cetera.
    And I think you answered then that you are aware but did 
not know. Have you come to any further knowledge or any further 
information that might help tell us why they are so good, so 
thorough, so great about outer space, but they don't do so well 
at home?
    Mr. Goldin. I am going to leave that to Secretary 
Richardson at Energy. I just don't know enough about the 
subject, and I am very concerned that with my inadequate 
knowledge I may be saying something inappropriate.
    Mr. Knollenberg. But you still feel very good about what 
takes place with the Russians in the space program?
    Mr. Goldin. To date they have done a superb job. One more 
example that I would like to give you, Vladimir Titov, who flew 
on the Shuttle twice, was on top of the Proton rocket that blew 
up underneath him. They had such a good safety escape system 
that he walked away from a Proton rocket with all of its fuel 
blowing up on the launch pad.
    Today we do not have such a similar escape system in our 
own Shuttle. I know that the Russians are very conscientious, 
and I have to say to date in what they do in space, and so far 
we have seen they seem to be very, very much on top of it. So I 
will stick with that and not take myself into other areas I am 
not an expert in.

                              SHUTTLE COST

    Mr. Knollenberg. I noticed by the chart that the Shuttle 
costs are coming down. I suspect that you have an expectancy of 
that continuing on into the future. This chart gives us some 
indication of what has taken place in the last several years 
since 1993?
    Mr. Goldin. Yes.
    Mr. Knollenberg. And I suspect that you are looking for 
greater reduction in addition to what is here. What about the 
current fleet of our four space shuttles? They wear out, too. 
This may have been asked previously and if it has been, I 
apologize.
    Mr. Goldin. No, it has not.
    Mr. Knollenberg. At what point do they become hazardous to 
the passengers?
    Mr. Goldin. The shuttles were designed for 400 trips to and 
from space. We rated them at only a hundred trips to and from 
space, and they are at about 25 percent of that derated design 
life taken in average. We have had about a hundred flights, 
four shuttles on average. They are about 25 percent into their 
design life.
    The issue is not the shuttles wearing out, the issue is 
obsolescence of parts and subsystems and components, and this 
is a focus of NASA and the United Space Alliance, and one of 
the areas that we are going to have to make some additional 
investments in the years ahead to keep the Shuttle safe is to 
avoid the problems associated with obsolescence and to 
incorporate advanced technologies to make the Shuttle even 
safer than it is today and I anticipate the expenditure of 
additional funds to increase the 4 to $500 million a year we 
spend in Shuttle upgrades and continue to make the Shuttle 
safer.
    Mr. Knollenberg. Is that reflected in your projection of 
expenditures?
    Mr. Goldin. We have about $400 million in Shuttle upgrade 
money now. And as part of the 2001 budget process, we are going 
to take a look at what additional upgrades we need to make to 
the Shuttle. But I would like to say openly and publicly, one 
of the reasons that we hired the United Space Alliance, we want 
to turn the Shuttle over to the private sector, and we expect 
them to make the Shuttle safer with higher quality, shorter 
turnaround time at lower cost.
    Mr. Knollenberg. Do you have anybody yet?
    Mr. Goldin. Yes, the United Space Alliance. We have had 
about $200 million since the contract began. But that is not 
enough. I want more.

                            LAUNCH VEHICLES

    Mr. Knollenberg. This is a softball type question too, but 
within the HEDS program or the--what is called HEDS, there is a 
statement that the major goals, of which there are four, are to 
increase human knowledge of nature's processes using the space 
environment; number two, explore the solar system. This next 
one, achieve routine space travel, does that fit into the way 
out there, 20, 30, 40 years from now or does that fit into this 
program, the privatizing?
    Mr. Goldin. That is a key part. And the other part is the 
part that Mr. Cramer asked me about before and that is 
revolutionary approaches to launch vehicles that go well beyond 
the Shuttle, and in that next 20-year period we hope to bring 
in a number of new launch vehicles that will be competitive 
with the Shuttle. We are not going to arbitrarily shut down the 
Shuttle. We think that we are making great strides in making it 
safer, and we like the competitive marketplace to take part. 
And by having NASA not own the Shuttle, having a private 
corporation, it sharpens that competition, which I think is the 
strength of our economy.

                 CONTINGENCY PLAN FOR THE SPACE STATION

    Mr. Knollenberg. Thank you very much.
    Mr. Walsh. I would like go out of order on this Y2K 
question because Joe raised it. It is an issue and the two 
principals are here. Let me ask, the NASA Inspector General 
released a report last week that is critical of your agency--of 
your contingency planning for the Space Station. The report 
concluded that the contingency plan does not comply with NASA 
procedures and guidelines because management has decided to 
omit year 2000 computer issues and planned actions to prevent 
further Russian delays from the detailed contingency plan. Do 
you care to comment?
    Mr. Goldin. I would like to ask Joe Rothenberg to answer 
that.
    Mr. Rothenberg. Let me start with reiterating Mr. Goldin's 
statement. We do have a comprehensive test plan that is in 
place now that will demonstrate our readiness, including the Russian 
partners, to deal with the year 2000.
    The second part of it is that there are a number of issues 
relative to things like power and communications. We are 
looking at portable satellite phones and things like that as 
backup. We have people who are currently doing an audit of what 
the Russian capabilities are at the mission control center at 
Moscow, which is the most critical facility because that is 
providing command and control for the first two elements up 
there.
    At this point we still don't have a report back to say what 
kind of backup they have and what kind of capability they have 
to ensure that they have power to their control center in the 
event of industrial outages due to year 2000. The second thing 
is voice communication links back and forth. We expect to hear 
a report on the 9th of April at the general design review.
    Mr. Walsh. Do you contest this report that the Inspector 
General has made that NASA does not comply?
    Mr. Rothenberg. At the current moment my information says 
we will comply and we need to complete some testing and also 
evaluation of the backup facilities.
    Mr. Walsh. Would the Inspector General care to respond?
    Ms. Gross. We evaluate at a point in time and what Joe is 
describing is some plan for the future. It is not there at this 
time, and we will follow up the backup contingency plans that 
he is describing. Like I say, it is a snapshot in time. We do 
not have those reports that he was talking about. We will only 
follow up an audit.
    Mr. Walsh. Should we be concerned?
    Ms. Gross. You have an International Space Station. NASA 
has to make sure that it has contingency plans. That is why we 
did the audit. We said you need to follow up. That is why Mr. 
Rothenberg is also taking the steps to find out what 
contingency plans are there.
    Mr. Goldin. That was precisely why I asked Mr. Rothenberg 
about 3 months ago to take a look at the backup situation that 
the Russians had and not just rely upon the Russians solving 
their Y2K, but in the event that the Russian power system and 
the phones were down, in a similar fashion to what we are doing 
even at our own centers in the United States. Until he finishes 
that study, we will not be compliant with the comment that the 
IG made on the report.
    Mr. Walsh. Thank you.
    Mr. Mollohan.

 ENVIRONMENTAL RESEARCH AIRCRAFT AND SENSOR TECHNOLOGY (ERAST) PROGRAM

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Goldin, I would like to ask you a couple questions 
about the unmanned aerial vehicle program or the Environmental 
Research Aircraft and Sensor Technology program, ERAST. Could 
you give us a status report on this program, what you have 
achieved, and what you feel is left to be done in the short 
term--and I am interested in the long-term plans for the 
program as well?
    Mr. Goldin. Yes. We felt that there was an area in the 
development of these remotely piloted vehicles that was not 
being looked at. This is the low cost end and so we undertook 
this ERAST program to build the vehicles and the sensors. Mr. 
Knollenberg asked questions about understanding the atmosphere, 
not just looking down from space. We felt that we needed to 
make some measurements in the upper atmosphere, and so we 
started a program to look at reciprocating engine technology 
and solar power technology, and in both of those areas we have 
made record breaking flights and we have done it with very, 
very low costs by working in partnership with industry.
    The area of the consumables or reciprocating engines, we 
think that work will be concluded in 1 to 2 years. There will 
be vehicles available that could be then commercialized and 
NASA could use them to make environmental measurements at about 
the 60,000 foot range.
    We are also developing a very efficient solar powered 
aircraft that could stay up indefinitely at altitudes of 80,000 
feet and the key technology there is energy storage to have 
ultra lightweight energy storage systems. We think that will be 
available in 3 years and our goal is to have a plane that could 
go up for a half year at a time and operate at 60 to 80,000 
feet and take hundreds of pounds of payload. That we think will 
be a very major breakthrough and we intend to spend about $20 
million a year to develop this technology and we hope that it 
will be available commercially in 3 to 5 years. These 
technologies are helping us to build planes to fly on Mars 
because the martian atmosphere is the equivalent of 100,000 
feet and having this experience in these very thin atmospheres 
is going to be very useful in helping us fly this plane on 
Mars.
    Mr. Mollohan. I bet the companies wish that was a market 
available today.
    Mr. Goldin. We are getting interest from a lot of 
communication companies. They told us if we could have such a 
plane available, it could open up a whole new capability in 
mobile communications.
    Mr. Mollohan. The solar plane?
    Mr. Goldin. The solar plane. The key is getting a plane 
that could stay up there indefinitely because when the planes 
have to go up and down, you have to buy more of them.
    Mr. Mollohan. Are these two different planes? You sound 
like you are describing the solar plane for the 80,000 feet 
missions, but do you see solar planes fulfilling the 60,000 
feet missions as well?
    Mr. Goldin. They may. The planes that carry consumables and 
have reciprocating engines could take a bigger payload, and 
they will be used in different applications. You have to build 
a pretty big wing to get a few hundred pounds, and the planes 
that operate at 60,000 feet today could take 500 pounds, and 
that may be a more attractive payload for certain applications. 
It depends on what you want to use it for.
    Mr. Mollohan. NASA is committed to developing both 
technologies and capabilities?
    Mr. Goldin. That is correct. We believe in another year or 
two we will have demonstrated the capability of these 
reciprocating engine planes. I think it will take a few extra 
years to get the solar plane developed.
    Mr. Mollohan. Two years to get the reciprocating engine 
planes approved?
    Mr. Goldin. A year or two.
    Mr. Mollohan. Do you want to check that?
    Mr. Goldin. A year or two is right. We have another year or 
two worth of development on the reciprocating engines.

                      RECIPROCATING ENGINE PROGRAM

    Mr. Mollohan. What are the list of challenges with regard 
to the reciprocating engine program?
    Mr. Goldin. Sam, I need a little help.
    Mr. Venneri. Good afternoon. The challenges on the 
reciprocating engine programs, and the Department of Defense 
also has some interest in that regime of being able to flyand 
so we are going to cooperate with the DOD.
    Mr. Mollohan. Are they participating in ERAST?
    Mr. Venneri. No, but they are parallel in many ways so we 
understand their progress. The challenges are in lightweight 
materials, autonomous flight. They are not really breakthrough 
kinds of things. That is why we say between the DOD effort and 
our effort, within a year or two we will reach that point in 
time where we will have a capability that several different 
organizations or industry could use.
    Mr. Mollohan. So the current team that is involved in the 
reciprocating engine project, you think it would take a year or 
two more of testing and refinement in order to prove or to 
develop a successful model?
    Mr. Venneri. If we are talking about time. Not in the 
fiscal year 2000 budget, that is correct.
    Mr. Mollohan. Yes, that is what I am talking about.
    And so, in this budget, what commitment to that part of the 
ERAST program is requested?
    Mr. Venneri. Well, we have one line in there and that is 
$20 million and exactly the breakout between the high flyer and 
the sustainable 65,000, I would have to look that up. There is 
a division between those two efforts.
    Mr. Mollohan. But you do have a commitment to proving out 
that technology?
    Mr. Venneri. We do have a commitment to follow through on 
the Alliance promise, yes.
    [The information follows:]

                      Reciprocating Engine Program

    With regards to the ERAST program objectives, the most 
significant remaining challenges are in two areas: (i) 
demonstrated operational flight reliability and maintainability 
for deployment to remote locations; and (ii) enabling 
technologies for operations in unrestricted air space. This 
latter element applies equally to consumable fuel and solar 
powered aircraft. The ERAST Alliance will utilize reciprocating 
engine UAV's (uncrewed aerial vehicles) for this development, 
since the technology readiness of these platforms is much 
further developed than the solar platforms.
    The FY-00 budget allocated to meet these commitments will 
depend largely upon flight test results from the three ERAST 
consumable fuel UAV's during the Spring and Summer of 1999. In 
any event, the funded technology developments will comprise 
incremental improvements to the existing ERAST engines. There 
are no plans for any significant modifications or upgrades to 
these existing ERAST engines, nor for a totally new 
reciprocating engine development program. This would require 
substantial amounts of additional funding, which alone would 
easily exceed the total ERAST budget.

    Mr. Mollohan. Thank you.
    Thank you, Mr. Chairman.
    Mr. Walsh. Mr. Frelinghuysen.

                            MIR SPACE WALKS

    Mr. Frelinghuysen. Thank you, Mr. Chairman. I apologize for 
my absence.
    I just wanted to ask Mr. Goldin about this little article 
news brief in Space News. You know it is Space News when the 
news is dated March 29, 1999. They seem to project themselves. 
Maybe we ought to question the accuracy of this little comment 
with the headline, Cash Shortage Prompts Cut in Mir Space 
Walks. ``Financial shortages have forced Mir's Flight Control 
Center to cut the number of space walks planned by the Russian 
station's current crew from 5 to 2, officials say. The lack of 
finances has played a major role in our decision two walks 
would be enough.''
    Victor Blanov, Deputy Chief of Flight Control, told Space 
News, ``Two space walks are planned for April and July,'' he 
said, ``and will carry out additional space walks if the 
Russian space researchers raise enough cash to send more 
equipment to be installed in Mir's exterior in the next few 
months.'' It doesn't sound that this program is about to be 
deorbited or am I misreading?
    Mr. Goldin. I told the chairman----
    Mr. Frelinghuysen. Did something occur in my absence?
    Mr. Goldin. The chairman asked me what I thought was the 
probability Mir would stay up in the air, and I said 1 in 10; 
unless there is someone who is willing to come up with a 
quarter of a billion dollars a year to commercially finance the 
Mir Space Station, I don't believe it will be up in the sky 
after August of this year.
    Mr. Frelinghuysen. So all of the talks, certainly they are 
having a financial crisis, it doesn't mean that this Mir will 
have a life much longer than you have projected?
    Mr. Goldin. Unless there is commercial--someone who wants 
to bring commercial money to the Mir, I don't believe that it 
will be up in the sky beyond August of this year.

                               GAO REPORT

    Mr. Frelinghuysen. Thank you. Shifting gears a little bit, 
Mr. Hobson and I last year had a number of questions and you 
gave us quite lengthy responses on that GAO report that was 
critical of NASA and the Department of Defense, critical in the 
sense that there was--they underlined the point that there were 
a lot of duplicative efforts. We heard a few minutes ago, and I 
didn't catch the name of the gentleman who was sitting to your 
right, but the DOD has one program and you have one program. In 
his words, similar but separate programs, which sort of gets to 
the gist of my question, and maybe my understanding of what we 
said was inaccurate.
    What are you doing relative to working on this problem, if 
there is a problem between DOD and NASA?
    Mr. Goldin. I don't believe that there is a problem. In 
fact I think the relationship with the Department of Defense 
and NASA has not been better. In fact, we are taking the 
responsibility in a multibillion dollar activity we have of 
developing reusable technology for civil, commercial and 
defense space. And in fact the DOD joined with us in a program 
called Future X. They are spending additional monies that they 
have to make sure that that program is successful. They expect 
that that program will lead to what they describe to be a space 
maneuvering vehicle.

                            LAUNCH VEHICLES

    Mr. Frelinghuysen. What about the use of launch facilities? 
Do you have separate launch facilities?
    Mr. Goldin. We have launch facilities associated with 
reusables, i.e., the Shuttle. We launch all of our rockets 
from--expendable rockets from DOD facilities. We do not have 
any unique launch facilities for expendable rockets. We use 
their facilities.
    Mr. Frelinghuysen. They are not separate?
    Mr. Goldin. No.

            PRIVATIZATION OF THE INTERNATIONAL SPACE STATION

    Mr. Frelinghuysen. Recently I was visited by what I 
classify as a pro space organization which, among other things, 
advocated for the privatization of the International Space 
Station. I know that you have testified some this morning and 
you have testified in the past that you supportthis 
privatization goal. Has NASA developed a conceptual plan?
    Mr. Goldin. Yes, we have. We have provided copies of that 
plan to the Congress. I have just asked someone to leave 
industry and come and be my special assistant for 
commercialization, Mr. Daniel Tam. He just left the private 
sector, as with Art Stephenson, at a great financial sacrifice. 
He was doing acquisitions for TRW and he has come to NASA to 
help us in our commercialization. We are going to be talking to 
a variety of companies. We have some pathfinder companies that 
are planning on using the Space Station for commercial 
activities and we are exploring the possibility of running an 
open competition to have a nongovernment organization run the 
science utilization activities on the Space Station.
    So we want to do everything possible, but what we don't 
want to do is pretend that it is privatization by having 
companies do 100 percent of their business with NASA and 
calling it commercial. We would like to amortize the overhead 
costs across the government and the private sector, and that is 
the direction that I am going to drive in.

                      SPACE STATION OPERATING COST

    Mr. Frelinghuysen. Review the estimated costs to operate 
the Space Station, annual costs?
    Mr. Goldin. $1.3 billion a year is our present estimate.
    Mr. Frelinghuysen. You may have been asked this, is it 
realistic to believe that private enterprise can operate such--
can handle these types of expenses?
    Mr. Goldin. Well, we have set aside up to 30 percent of the 
utilization facilities on the Space Station to private 
enterprise, and we said if they can go up to 50 percent we will 
make it available. We are going to see what is possible.
    I think the biggest single barrier to commercial is not the 
operation on the Space Station but the $10,000 a pound to get 
it up to orbit. That to me is the biggest problem that we face, 
not just for the Space Station but we face this for commercial, 
military and civil space. This is why we have such an 
aggressive program to try and get the costs of launch down, and 
that will be the enabler in my mind of commercial operation in 
the broadest sense.
    And we hope in 10-15 years NASA will be able to move at a 
lower orbit if we achieve some of the goals and access to lower 
orbit.

                             ENGINE TESTING

    Mr. Frelinghuysen. Mr. Goldin, I understand that you have 
begun the testing of the engines that will be used in the X-34 
vehicle. Can you tell me how that test is going?
    Mr. Goldin. A hundred percent successful. We are now ready 
for the full certification and qualifications tests. We will be 
testing eight engines. Three have been delivered, and we will 
be ready for testing. So we will be on track.

                              X-33 PROGRAM

    Mr. Frelinghuysen. What is the next milestone for the X-33 
program?
    Mr. Goldin. To resolve the issue on the composite tanks. 
The rest of the vehicle has come together. The launch pad is 
complete. In fact, I might point out that what used to cost 
hundreds of millions of dollars was done for $32 million. We 
have a complete launch complex out in the Mohave Desert at 
Edwards Air Force Base. As soon as we can resolve the problems 
we are having in building these huge composite tanks, I think 
the last of our problems will be behind us on the X-33 and we 
will be readying it for launch.
    Mr. Frelinghuysen. It is my understanding that NASA is 
currently pursuing a lightweight synthetic aperture radar which 
would be developed in a cost shared agreement with industry. 
What will this effort cost your agency?
    Mr. Goldin. Mal, can you give me that number.
    Mr. Peterson. Just a second.
    Mr. Goldin. I think it is $120 million.
    Mr. Frelinghuysen. He knows his stuff.
    Mr. Peterson. That is correct.
    Mr. Frelinghuysen. Mr. Chairman, make a note, another 
positive mark. Thank you, Mr. Chairman.
    Mr. Walsh. I along with everyone else in the room duly 
noted that.
    Let's see. Does anyone else have any--Joe, do you have any 
questions that you need to ask?
    Mr. Knollenberg. No. I just want to reserve the right to 
submit some questions for the record.
    Mr. Walsh. I think we are in agreement that we have 
exhausted at least the verbal questions, although you are still 
going strong, and we will submit some questions for the record.
    Mr. Frelinghuysen. He is still in orbit.
    Mr. Goldin. I wish I were.
    Mr. Walsh. I think we will leave it right there and submit 
questions for the record and hope that you would respond back 
quickly. Do you have any closing remarks?

                 ADMINISTRATOR GOLDIN'S CLOSING REMARKS

    Mr. Goldin. Yes. There are two issues. One, I wanted to 
verify some numbers about the testing that the Russians had 
done. You said how many tests had they done and how many were 
accepted.
    As of--and this is on the service module. As of the 15th of 
March, they had completed 445 tests of 526 and 411 were 
accepted.
    Mr. Walsh. You said that they did 500 out of 570.
    Mr. Goldin. I was giving some verbal information. That is 
why I said as of 3-15. The verbal information is that the 
number of tests increased to 570, of which they completed 500, 
and about 540 were accepted, but that is verbal information and 
that will not be verified until another 24 hours. I wanted to 
be correct on that.
    Another item, there was a question that you asked me that I 
was confused on and I wanted to verify over lunch, and the 
question was regarding the growth on the Space Station, how 
could we categorize the costs.
    Through development complete, the estimate is $22.1 
million. If we put in a 1-year schedule margin it is 23.7 
million. Of the growth, overrun is about 900 million. 
Additional scope, namely a crew return vehicle and building 
additional equipment to compensate for what we were concerned 
the Russians might not be able to deliver, the total of that is 
2 billion. And the schedule ranges from 1.7 billion--schedule 
slip, 1.7 billion if we hold the present schedule. If we put in 
the 1-year reserve, it is 3.3 billion, and I felt that I should 
verbally tell you that and I apologize for my confusion.
    Mr. Walsh. That is all right.
    We had scheduled a hearing for tomorrow also and I don't 
think that we will need to do that, so you are free to go. 
Thank you.
    Mr. Goldin. Thank you.
    Mr. Walsh. The hearing is closed.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               I N D E X

                              ----------                              
                                                                   Page
Administrator Prepared Statement.................................  3-37
Aeronautics and Space Technology:
    Advanced Propulsion Physics..................................    56
    Aging Aircraft...............................................    84
    Competitiveness in the Industry..............................    81
    Engine Testing...............................................   116
    Environmental Research Aircraft and Sensor Technology (ERAST) 
      Program...................................................111-113
    Evolvable Expendable Launch Vehicles.........................    82
    High Speed Research.......................................... 78-80
    Increasing Aerospace Findings................................    96
    Intelligent Synthesis Environment (ISE)...................39, 92-96
    Space Liner 100 Program...................................... 55-56
    Ultra Efficient Engine Technology (UEET)..................... 82-83
    X-33 Program.................................................   116
Agency Science Programs..........................................    98
Budget:
    Decline......................................................    65
    Total Cost Budgeting........................................104-105
Budget Justifications...........................................171-866
Closing Remarks:
    Administrator Daniel Goldin..................................   117
Department of Defense:
    Relationship with NASA.......................................   114
Earth Science:
    Effects of Greenhouse Gases..................................   101
    Global Climate Change........................................99-101
    Hubble Space Telescope......................................105-107
    Small Planetary Missions (Earth Probes)......................    58
    Triana...............................................59-65, 105-106
Federal Agencies:
    Cooperation With Other...................................83-84, 100
Human Resources and Education:
    Academic Programs............................................    75
    Downsizing at NASA...........................................    66
    Education (NASA's Role)......................................   102
    Science, Engineering, Mathematics Aerospace Academy (SEMAA).. 69-70
International Space Station:
    Auditing Russian Funds.......................................    84
    Boeing Contract Overruns.....................................    49
    Building Cost................................................    40
    Commercialization Plan.......................................    80
    Contingency Plan.............................................   110
    Cost Overruns................................................41, 42
    Crew Return Vehicle..........................................41, 71
    Critical Path Items..........................................    47
    Docking System...............................................    82
    Increasing Cost..............................................    75
    Intergovernmental Agreements................................. 71-73
    Interim Control Module (ICM).................................40, 45
    International Cooperation....................................    70
    Operating Cost...............................................   115
    Privatization of.............................................   115
    Propulsion Module............................................    71
    Russian Equipment & Hardware Delays..........................    39
    Russian Partnership..........................................    44
    Savings Due to Russian Involvement...........................    52
    Schedule Slippage............................................ 41-43
    Service Module........................................40-41, 45, 48
    Soyuz Purchase............................................... 85-86
    Space Station Amendments..................................... 49-50
    Why Space Station Is Important?..............................    51
Life and Microgravity Research Missions..................56-58, 101-102
Opening Remarks:
    Administrator Daniel Goldin..................................    38
    Chairman's...................................................     1
    Congressman Alan Mollohan....................................    38
Questions for Record............................................118-170
Russian Space Agency:
    Budget.......................................................    44
    Deorbiting Plan..............................................45, 52
    Performance Failures......................................... 96-98
    Purchase of Goods and Services............................... 46-47
Space Shuttle:
    Cost........................................................109-110
    Missions.....................................................   106
    Operations................................................... 67-68
State and Local Government:
    Relationship With............................................ 86-92
Y2K Compliance.............................................107-108, 110

                                <greek-d>
</pre></body></html>
